No. 21A24

In the Supreme Court of the United States
W HOLE W OMAN ’ S H EALTH , ET AL .,
Applicants,
v.
JUDGE AUSTIN REEVE JACKSON, ET AL.,
Respondents.
RESPONDENTS’ OPPOSITION TO EMERGENCY APPLICATION FOR WRIT OF
INJUNCTION AND, IN THE ALTERNATIVE, TO VACATE STAYS OF DISTRICT
COURT PROCEEDINGS
HEATHER GEBELIN HACKER
Counsel of Record
ANDREW B. STEPHENS
Hacker Stephens LLP
108 Wild Basin Road South, Suite 250
Austin, Texas 78746
Tel.: (512) 399-3022
heather@hackerstephens.com
Counsel for Respondent Clarkston

KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant Attorney General
JUDD E. STONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy Solicitor General
NATALIE D. THOMPSON
BETH KLUSMANN
Assistant Solicitors General
Office of the Texas Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Judd.Stone@oag.texas.gov
Counsel for Respondents Jackson,
Carlton, Thomas, Young, Benz, and
Paxton

T ABLE

OF

C ONTENTS
Page

INTRODUCTION .........................................................................................................1
STATEMENT OF THE CASE ....................................................................................... 2
ARGUMENT ................................................................................................................5
I. Applicants Have Not Shown an Indisputably Clear Right to
Relief as to the Governmental Defendants. ............................................ 5
A. Applicants lack Article III standing. ................................................ 6
B. Applicants cannot invoke Ex parte Young to overcome
Respondents’ sovereign immunity. ................................................. 12
C. 42 U.S.C. Section 1983 Bars Injunctive Relief Against
Judge Jackson and Ms. Clarkston. ................................................. 19
II. Applicants Have Not Shown Irreparable Harm. ................................. 24
A. Enjoining Respondents will not remedy Applicants’
alleged injury. .................................................................................... 25
B. The alleged prejudice is of Applicants’ own making. .................... 26
C. Applicants’ requested injunction is overbroad. ............................. 28
III. Respondents Will Be Irreparably Harmed if Subjected to an
Injunction Pending Appeal. .................................................................... 30
IV. The Court Should Reject Applicants’ Requests for
Alternative Forms of Relief. ................................................................... 32
A. The Court should not vacate the district court stays. ................... 33
B. The Court should not vacate the denial of respondents’
motions to dismiss solely so Applicants can seek
injunctive relief. ................................................................................. 37
CONCLUSION ....................................................................................................... 38

I NTRODUCTION
There are many reasons that the Applicants are not entitled to the
extraordinary relief they seek. The most obvious is that Applicants seek an
injunction from this Court that would utterly fail to prevent any of the harm
they claim will occur once Texas Senate Bill 8 becomes effective. This Court
cannot expunge the law itself. Rather, it can enjoin only enforcement of the
law. But the Governmental Defendants explicitly do not enforce the law, and
the private-individual respondent testified that he will not do so.
Applicants’ inability to obtain a preliminary injunction is the result of their
own litigation decisions, not some injustice foisted upon them by the Fifth
Circuit, which merely acknowledged a longstanding rule that the district court
is divested of jurisdiction after appeal of an order denying sovereign immunity.
Texas’s Senate Bill 8 was signed into law on May 19. It takes effect on
September 1. See Act of May 19, 2021, 87th Leg., R.S., SB 8 § 12, effective
Sept. 1, 2021 (“SB 8”). Applicants waited until July 13 to file this lawsuit and
until August 7 to seek a preliminary injunction. Supp.App.2; Dist. Ct. ECF No.
53. Applicants were (or should have been) well-aware the government officials
they sued would invoke sovereign immunity. And Applicants’ counsel could not
have been ignorant of the firm boundaries Article III places around federal
courts. Yet Applicants waited until August 11 to make any explanation as to
how there is subject-matter jurisdiction in this case, even though Respondents
had already raised the issue several times. Dist. Ct. ECF Nos. 56, 57, 62.

Those jurisdictional defects mean Applicants cannot obtain the injunction
they seek. At bottom, Applicants’ lawsuit asks the federal courts not to decide
a concrete dispute between parties, but to sit as a “roving commission . . . on
the validity of [Texas] law[].” Broadrick v. Oklahoma, 413 U.S. 601, 610-11
(1973). That is not the role of a federal court. Their audacious requests to this
Court, given the numerous precedents standing in the way, should be denied.
S TATEMENT

OF THE

C ASE

I. SB 8 creates a private cause of action that enables Texans to sue those
who perform, or aid and abet the performance of, abortions after a fetal
heartbeat has been detected. SB 8 § 3 (creating Tex. Health & Safety Code
§ 171.208(a)). It is an affirmative defense that (1) the defendant in such an
action “has standing to assert the third-party rights of a woman . . . seeking an
abortion,” and (2) awarding relief to the claimant would impose an undue
burden. Id. § 171.209(b). Utilizing this cause of action, a lawsuit can be brought
by “[a]ny person, other than an officer or employee of a state or local
governmental entity in this state.” Id. (emphasis added).
Section 6 of the bill declares that the private cause of action established in
Section 3 is the only method of enforcing SB 8. Before SB 8, Chapter 171 of
the Texas Health and Safety Code, which regulates abortions, provided that
the Department of State Health Services “shall enforce this chapter.” Tex.
Health & Safety Code § 171.005. After SB 8 becomes effective, however, the
provision will read: “The [Health and Human Services C]ommission shall
enforce this chapter except for Subchapter H, which shall be enforced
2

exclusively through the private civil enforcement actions described by Section
171.208 and may not be enforced by [HHSC].” SB 8 § 6 (amending Tex. Health
& Safety Code § 171.005) (emphasis added).
Section 3 of the bill reiterates that private causes of action are the only
method of enforcing SB 8: “Notwithstanding Section 171.005 or any other law,
the requirements of this subchapter shall be enforced exclusively through the
private civil actions described in Section 171.208.” SB 8 § 3 (creating Tex.
Health & Safety Code § 171.207(a)) (emphasis added). It further expressly
prohibits any form of public enforcement:
No enforcement of this subchapter, and no enforcement of Chapters
19 and 22, Penal Code, in response to violations of this subchapter, may
be taken or threatened by this state, a political subdivision, a district
or county attorney, or an executive or administrative officer or
employee of this state or a political subdivision against any person,
except as provided in Section 171.208.
Id.1 In light of that clear text, the Office of the Texas Attorney General
interprets state law to foreclose government enforcement of SB 8 section 3,
whether direct or indirect. Supp.App.50-53.
II. Applicants are various abortion clinics and abortion doctors,
Supp.App.9-12, as well as other organizations that allegedly advocate for
abortions and two individuals who allegedly provide spiritual care and
counseling about abortions, Supp.App.12-15.

Chapter 19 of the Penal Code sets out criminal homicide offenses and
Chapter 22 sets out assaultive offenses.
1

3

Despite SB 8’s plain text prohibiting government enforcement, Applicants
filed suit seeking injunctive relief against a cadre of state executive officials:
the Executive Directors of the Texas Medical Board (“TMB”), Texas Board of
Nursing, and Texas Board of Pharmacy, as well as the Commissioner of
HHSC, and the Attorney General (collectively, the “State Agency
Defendants”). Supp.App.15-20.
Applicants also sued a Texas district judge and a court clerk. Respondent
Judge Austin Reeve Jackson presides over Texas’s 114th District Court. The
114th District Court is one of four district courts sitting in Smith County,
Texas, population 235,753. Respondent Penny Clarkston is the clerk of Smith
County’s courts. Applicants’ theory: Texas executive officials do not enforce
SB 8 (notwithstanding their claims against those very officials), so it must be
“enforced” by the clerks who accept filings and the judges who preside over
private lawsuits. See Supp.App.24-25; Dist. Ct. ECF No. 62 at 3-5 (citing
Shelley v. Kraemer, 334 U.S. 1, 14 (1948)). They have acknowledged that their
suit names Judge Jackson in his “judicial capacity.” Dist. Ct. ECF No. 19 at 4.
And they have moved to certify defendant classes of all Texas judges with
jurisdiction to hear private lawsuits brought under SB 8 and the district clerks
of all 254 Texas counties. Dist. Ct. ECF No. 32; see Appl. at 4.
Applicants also sued Respondent Mark Lee Dickson, an individual who
they allege has threatened to file private enforcement actions against them
utilizing SB 8’s cause of action. Respondent Dickson has testified that he does
not intend to file any such action. See Dist. Ct. ECF No. 64-1.
4

A RGUMENT
To obtain the “extraordinary remedy” of an injunction pending appeal,
Applicants must show that injunctive relief is (1) necessary or appropriate in
aid of the Court’s jurisdiction, and (2) the legal rights at issue are “indisputably
clear.” Wis. Right to Life, Inc. v. Fed. Election Comm’n, 542 U.S. 1305, 1306
(2004) (Rehnquist, C.J., in chambers); 28 U.S.C. § 1651(a). The Court’s
authority to issue such an injunction is to be used “sparingly and only in the
most critical and exigent circumstances.” Ohio Citizens for Responsible
Energy, Inc. v. Nuclear Regul. Comm’n, 479 U.S. 1312, 1313 (1986) (Scalia, J.,
in chambers) (quoting Fishman v. Schaffer, 429 U.S. 1325, 1326 (1976)
(Marshall, J., in chambers)). Far from presenting “critical and exigent
circumstances,” id., this case does not present an Article III case or
controversy. Contrary to Applicants’ hyperbolic assertions, they have not
shown that they will be personally harmed by a bill that may never be enforced
against them by anyone, much less by the Governmental Defendants. By
contrast, the Governmental Defendants—and the State they have sworn to
serve—will be irreparably harmed if any of the litany of alternative forms of
requested relief are granted.

I. Applicants Have Not Shown an Indisputably Clear Right to Relief as
to the Governmental Defendants.

At the outset, Applicants fail to show an “indisputably clear” right to relief
because they fail to show federal jurisdiction over the present claim. They lack
Article III standing, and sovereign immunity bars their claims against the

5

Governmental Defendants. No court—not even this one—can enjoin a
defendant where it lacks jurisdiction. So even if Applicants were correct that
SB 8 is facially unconstitutional, they would not be entitled to an injunction
pending appeal.

A. Applicants lack Article III standing.
A plaintiff invoking federal jurisdiction must show that his alleged injury
is caused by the defendant he has chosen to sue and redressable by an order
against that defendant. See Clapper v. Amnesty Int’l USA, 568 U.S. 398, 409
(2013). And “for purposes of traceability, the relevant inquiry is whether the
plaintiffs’ injury can be traced to ‘allegedly unlawful conduct’ of the defendant,
not to the provision of law that is challenged.” Collins, 141 S. Ct. at 1779
(quoting Allen v. Wright, 468 U.S. 737, 751 (1984)). As this Court recently
explained, Applicants do not have standing to challenge legal provisions that
the defendant cannot enforce. See California v. Texas, 141 S. Ct. 2104, 2114
(2021).
1.

State Court Defendants

a. Applicants do not have standing to sue a state judge or court clerk
because a private party might file a lawsuit in his court. As several courts of
appeals have concluded, there is no case or controversy between a judge and
a plaintiff challenging the constitutionality of a state law merely because the
judge may apply that law. See Cooper v. Rapp, 702 F. App’x 328, 333 (6th Cir.
2017); Bauer v. Texas, 341 F.3d 352, 359 (5th Cir. 2003); Mendez v. Heller, 530
F.2d 457, 461 (2d Cir. 1976). The same principle applies to a state court’s clerk
6

for the same reason, as he or she works at the direction of judges. Ch. Clerk of
Chickasaw County v. Wallace, 646 F.2d 151, 160 (5th Cir. 1981). “The
requirement of a justiciable controversy is not satisfied where a judge acts in
his adjudicatory capacity.” Bauer, 341 F.3d at 359. And whether a judge acts
in that capacity turns on “the nature of the act itself, i.e., whether it is a
function normally performed by a judge.” Stump v. Sparkman, 435 U.S. 349,
362 (1978).
As the Fifth Circuit explained four decades ago, “clerks and judges do not
have a sufficiently ‘personal stake in the outcome of the controversy’” to allow
for federal jurisdiction. Wallace, 646 F.2d at 160 (quoting Baker v. Carr, 369
U.S. 186, 204 (1962)). Other courts agree: a judge’s posture is “not in any sense
the posture of an adversary to the contentions made on either side of the case.”
Mendez, 530 F.2d at 459. To the contrary, a judge acts as “a disinterested
judicial adjudicator, bound to decide the issues before him according to the
law.” Cooper, 702 F. App’x at 333-34. For the same reasons, many courts have
rejected attempts to name the judges who apply challenged statutes as
defendants under section 1983. See Allen v. DeBello, 861 F.3d 433, 440 (3d Cir.
2017); Grant v. Johnson, 15 F.3d 146, 148 (9th Cir. 1994); In re Justices of Sup.
Ct. of P.R., 695 F.2d 17, 22 (1st Cir. 1982).
This conclusion follows from this Court’s traditional three-part standing
inquiry into whether the plaintiff has demonstrated an injury in fact,
traceability, and redressability. See Lujan v. Defs. of Wildlife, 504 U.S. 555,
560 (1992). In particular, the second element of Article III standing requires
7

that a plaintiff’s injury be “fairly . . . trace[able] to the challenged action of the
defendant, and not . . . th[e] result [of] the independent action of some third
party not before the court.” Id. It is not enough that the challenged statute
causes the plaintiff’s injury—the plaintiff must show the injury was caused by
actions of the defendants. See Collins, 141 S. Ct. at 1779; Nova Health Sys. v.
Gandy, 416 F.3d 1149, 1157 (10th Cir. 2005); Hope Clinic v. Ryan, 249 F.3d
603, 605 (7th Cir. 2001) (per curiam). When the alleged injury is the potential
for a lawsuit, standing depends on (among other things) whether or where
private lawsuits are filed, how they will be litigated, or whether any initial
conclusions will be upheld on appeal. Each of these contingencies must be
considered in assessing standing. See Clapper, 568 U.S. at 409.
b. As summarized by the district court, Applicants’ theory is that judges
and clerks can be sued because they will “exert their official power to open the
actions in the docket and issue citations compelling those sued under SB 8 to
respond to the lawsuit and exert the compulsive power of the state to force
those sued under SB 8 to comply with the statute through an injunction and
other penalties.” App.51. That is a description of a judge’s core judicial
function: “issuing an injunction and other penalties,” App.51, are
“paradigmatic judicial acts.” Forrester v. White, 484 U.S. 219, 227 (1988). And,
if Applicants believe that Judge Jackson has exercised his judicial authority in
a manner inconsistent with the constitution, they have an immediate route of
judicial redress: appeal through the state system and—if necessary—a
petition for certiorari before this Court. 28 U.S.C. § 1257; Sup. Ct. R. 10(b).
8

Applicants’ contrary authority is inapposite because it addresses lawsuits
brought against state judges where they are sued in an enforcement or
administrative capacity—not in their judicial capacities. Chief among them is
Supreme Court of Virginia v. Consumers Union, 446 U.S. 719 (1980), which
addressed the Virginia Supreme Court’s ability to create the rules governing
the state bar and apply them by initiating disciplinary action against violators.
This Court was very careful to distinguish between the capacities in which the
Justices were being sued, and it allowed only those claims brought against
them in their “enforcement capacity.” Id. at 736. Similarly, this Court has held
that a judge might be sued in an “administrative” capacity. See Forrester v.
White, 484 U.S. 219, 227 (1988). In Ex parte Virginia, 100 U.S. (10 Otto) 339
(1880), for example, this Court found that a judge could be an appropriate
defendant in a case challenging the process of summoning potential jurors
because that administrative function could have been performed some other
official. See id. Put in modern parlance, sending out jury summonses is not “a
function normally performed by a judge.” Stump, 435 U.S. at 362.
c. The district court erred by adopting Shelley v. Kraemer for the
proposition that “Supreme Court precedent dictates that the Judicial
Defendants are the proper defendants” because “the Judicial Defendants are
the only members of the State immediately connected with the enforcement of
SB 8.” App.51. Shelley says nothing about standing, and it did not involve a
state judge named as a defendant. See 334 U.S. at 15-16. It merely held that
“judicial action” is “state action” for purposes of applying the Fourteenth
9

Amendment to racially restrictive covenants. Id. And since it was decided, this
Court has “tightly confined Shelley to its most narrow application.” G. Sidney
Buchanan, A Conceptual History of the State Action Doctrine: The Search for
Governmental Responsibility (Part II of II), 34 Hous. L. Rev. 665, 709 (1997)
(discussing Evans v. Abney, 396 U.S. 453, 445 (1970)). Shelley does not—and
cannot—support a general proposition that a disgruntled potential litigant
may sue any judge who has jurisdiction to adjudicate a hypothetical future
case against him.
2.

State Agency Defendants

Applicants also cannot establish standing to sue the State Agency
Defendants because, by statute, these Respondents cannot enforce S.B.8 and
do not cause any injury that might result from its private enforcement.
Applicants concede (at 2, 7) the State Agency Defendants cannot “directly”
enforce SB 8. But they contend (at 4) that the State Agency Defendants “have
authority to enforce collateral penalties against Applicants for violating SB 8.”
See also App.23-25 (adopting Applicants’ interpretation of Texas law). For
example, Applicants cite a cause of action that may be utilized by the Texas
Attorney General to pursue civil penalties against a licensed physician “[i]f it
appears that [she] is in violation of or is threatening to violate this [Subtitle B
of Title 3 of the Texas Occupations Code] or a rule or order adopted by the
[Texas Medical Board].” Tex. Occ. Code § 165.101(a). They say this provision
gives the attorney general “indirect” enforcement authority sufficient to show

10

traceability and redressability. That is an incorrect reading of Texas law. See
Supp.App.50-53.
The Texas Legislature was unusually explicit in SB 8. “Notwithstanding
. . . any other law,” SB 8 “shall be enforced exclusively through the private civil
actions described in Section 171.208.” SB 8 § 3 (creating Tex. Health & Safety
Code § 171.207(a)). Seeking civil penalties for a violation of SB 8 based on
general authority, like that provided in the Occupations Code, would violate
the specific text of SB 8. Like federal law, Texas law does not allow an agency
to exercise authority not provided to it or to circumvent a clear legislative
command leaving enforcement of a particular law to some other actor. See, e.g.,
Liberty Mut. Ins. Co v. Adcock, 412 S.W.3d 492, 494 (Tex. 2013). General
provisions authorizing other types of enforcement of other laws cannot be read
to authorize public enforcement of SB 8. See Horizon/CMS Healthcare Corp.
v. Auld, 34 S.W.3d 887, 901 (Tex. 2000) (explaining “the traditional statutory
construction principle that the more specific statute controls over the more
general”). So that is why Respondent Paxton’s office takes the position the
Office of the Attorney General “may not enforce it either directly or
indirectly.” Supp.App.53.
Applicants insinuate (at 7) that the structure of SB 8 is somehow
unconstitutional because there is no statewide official against whom they can
bring a pre-enforcement challenge. See also Dist. Ct. ECF No. 62 at 3-5;
App.51. But this Court has squarely held that the absence of a party with
standing to sue “is not a reason to find standing.” Valley Forge Christian Coll.
11

v. Americans United for Separation of Church & State, Inc., 454 U.S. 464, 489
(1982). Nor does this leave Applicants open to repeated suits across the State
with no hope of redress for a constitutional injury. Contra Appl. at 8, 20. As
noted above (at 2), they can raise their constitutional challenge as a defense in
an action brought under S.B.8 in state court and seek review here if necessary.
State court may not be Applicants’ preferred forum, but state courts are
permitted to consider federal constitutional questions. Stone v. Powell, 428
U.S. 465, 494 n.35 (1976) (“State courts, like federal courts, have a
constitutional obligation to safeguard personal liberties and to uphold federal
law.”) (citing Martin v. Hunter’s Lessee, 1 Wheat. 304, 341-344 (1816)); see
also, e.g., Doran v. Salem Inn, Inc., 422 U.S. 922, 930 (1975) (“[S]tate courts
are fully competent to adjudicate constitutional claims.”). Indeed, there are
several lawsuits challenging SB 8 already pending in Texas courts. See, e.g.,
Tuegel v. Texas, No. D-1-GN-21-004316 (261st Dist. Ct., Travis County, Tex.
August 25, 2021); The Bridge Collective v. Texas, No. D-1-GN-21-004303
(126th Dist. Ct., Travis County, Tex. August 25, 2021); Van Stean v. Texas,
No. D-1-GN-21-004179 (98th Dist. Ct., Travis County, Tex. August 23,
2021).The absence of a government official to sue in federal court at this time
does not create standing. Valley Forge, 454 U.S. at 489.

B. Applicants cannot invoke Ex parte Young to overcome
Respondents’ sovereign immunity.

Even if Applicants had standing, they cannot sue the Governmental
Defendants unless the claim fits within the Ex parte Young exception to
12

sovereign immunity. See Kentucky v. Graham, 473 U.S. 159, 166 (1985) (“[A]n
official-capacity suit is, in all respects other than name, to be treated as a suit
against the entity.”). For a plaintiff to properly invoke Ex parte Young, 209
U.S. 123 (1908), the state official sued must have “some connection with the
enforcement of the [challenged] act, or else [the suit] is merely making him a
party as a representative of the state, and thereby attempting to make the
state a party.” Id. at 157. Applicants cannot show that necessary connection.
As this Court’s precedent explains, “[t]here is a wide difference between a
suit against [State officials] to prevent them, under the sanction of an
unconstitutional statute, from committing by some positive act a wrong or
trespass, and a suit against officers of a state merely to test the
constitutionality of a state statute.” Fitts v. McGhee, 172 U.S. 516, 529-30
(1899). The Ex parte Young exception authorizes lawsuits only against a state
officer who is violating or intends to violate federal law; that is what “strips”
the officer of his sovereign authority and allows him to be sued as a rogue
individual rather than as a component of a sovereign entity. See Ex parte
Young, 209 U.S. at 159-60; Pennhurst State Sch. & Hosp. v. Halderman, 465
U.S. 89, 104 (1984) (“[A]n official who acts unconstitutionally is ‘stripped of his
official or representative character’” (emphasis added) (quoting Ex parte
Young, 209 U.S. at 60).
1.

State Court Defendants

Applicants’ claims against Ms. Clarkson and Judge Jackson demonstrate
that they are attempting to do what Ex parte Young said they may not: “make
13

the state a party.” 209 U.S. at 157. Applicants urge a federal court to enjoin
every non-federal judge and court clerk in Texas—the entire Texas
judiciary—to prevent the filing or consideration of private-enforcement suits
under SB 8. Supp.App.7; Dist. Ct. ECF 32.
But Applicants’ claims against Judge Jackson and Ms. Clarkston, even as
individual state judicial officers, cannot fall within the Ex parte Young
exception because neither has the necessary “connection with the enforcement
of the [challenged] act.” Ex parte Young, 209 U.S. at 157 (emphasis added).
Under the federal constitution, it is axiomatic that “the province and duty of
the judicial department [is] to say what the law is.” Marbury v. Madison, 5
U.S. 137, 177 (1803). Enforcement of the law is the province of the Executive
Department. U.S. CONST. ART. II, § 3. The Texas Constitution functions the
same way. See TEX. CONST. ART. II, § I; see generally id. art. IV. Indeed, Ex
parte Young itself forecloses Applicants’ theory:
[T]he right to enjoin an individual, even though a state official, from
commencing suits . . . does not include the power to restrain a court
from acting in any case brought before it, either of a civil or criminal
nature. . . . [A]n injunction against a state court would be a violation of
the whole scheme of our government.
209 U.S. at 163.
Applicants’ insistence to the contrary—that court clerks and judges
“enforce” SB 8—fails for many of the same reasons that their standing
arguments do not support jurisdiction. Applicants argue that, as a clerk, Ms.
Clarkson is “connected to SB 8’s private-enforcement mechanism” because
14

she “will docket SB 8 petitions for enforcement and issue summonses
compelling those sued to appear on pain of default judgment.” Appl. at 21.
Applicants insist that Judge Jackson enforces SB 8 because he “will oversee
enforcement actions and issue SB 8’s mandatory penalties.” These allegedly
unconstitutional actions are wholly dependent on actions by a private party.
Ms. Clarkston has no control over whether someone chooses to file an SB 8
enforcement petition in Smith County. And issuing citation comes only after a
private party both chooses to file an enforcement action and “request[s]” that
citation be issued. Tex. R. Civ. P. 99(a). And of course, Judge Jackson has no
say over whether someone chooses to file suit in Smith County District Court,
nor even over whether that case is assigned to him or one of the other three
district judges in the county.
The mere act of docketing or hearing a case cannot strip Judge Jackson or
Ms. Clarkston of their government authority because, even under Applicants’
theory, not every SB 8 enforcement suit violates the Constitution. For
instance, SB 8 and its private cause of action apply to late-term abortions
already prohibited by Texas law—a prohibition Applicants cannot dispute is
constitutional. See Tex. Health & Safety Code § 171.044. And it is the
responsibility of the litigant—not the court clerk—to ensure that his court
filings respect the constitutional rights of an opposing party. The clerk does
nothing illegal by accepting a court filing that seeks to enforce a statute that
may be unconstitutional in some applications, as Applicants allege here. Nor
is Judge Jackson a federal lawbreaker merely by presiding over a lawsuit
15

between private litigants—even if the lawsuit is brought under an allegedly
unconstitutional statute.
Applicants’ lawsuit is all the more problematic because it attempts to force
Judge Jackson and Ms. Clarkston to be the representatives of putative classes
of every non-federal judge and court clerk in Texas—essentially asking
federal courts to commandeer the entire Texas judiciary. But as this Court
held in Coeur d’Alene Tribe, if a suit “implicates special sovereignty interests,”
the Ex parte Young exception does not apply. 521 U.S. at 281. By seeking relief
against classes making up the entire Texas judiciary, Applicants seek relief
that “is close to the functional equivalent” of suing the Texas judiciary. Id. at
282. “This is especially troubling when coupled with the far-reaching and
invasive relief” Applicants seek. Id. Applicants cannot use the mechanism of a
class action to bring a lawsuit otherwise barred by sovereign immunity.
2.

State Agency Defendants

Plaintiffs’ claims against the State Agency Defendants fail too because
they do not enforce SB 8 within the meaning of Ex parte Young. Ex parte
Young “rests on the premise—less delicately called a ‘fiction’—that when a
federal court commands a state official to do nothing more than refrain from
violating federal law, he is not the State for sovereign-immunity purposes. The
doctrine is limited to that precise situation . . . .” Va. Office for Prot. &
Advocacy v. Stewart, 563 U.S. 247, 255 (2011) (citation omitted). Because an
Ex parte Young injunction “commands a state official to . . . refrain from
violating federal law,” id., it cannot issue if the state official does not enforce
16

the law in question. 209 U.S. at 157. If the defendant does not enforce the
challenged state law, then the plaintiff “is merely making him a party as a
representative of the state, and thereby attempting to make the state a party,”
which sovereign immunity forbids. Id.
As explained above, the State Agency Defendants lack state law authority
to enforce SB 8, whether directly or indirectly. See Supp.App.50-53. Even
cases taking a broad view of the Ex parte Young exception recognize that it
applies to “a state official who enforces [an unconstitutional state] law,” not all
state officials. Va. Office for Prot. & Advocacy, 563 U.S. at 255; see also Frew
ex rel. Frew v. Hawkins, 540 U.S. 431, 437 (2004) (“state officials acting in
violation of federal law”). Because the State Agency Defendants are not acting
at all, the Ex parte Young fiction has no applicability. Put another way, a
federal court cannot order parties to stop doing what they are already not
doing.
Allowing Applicants to sue Defendants who do not enforce SB 8 would
upend this Court’s conception of judicial review. “The party who invokes the
power [of judicial review] must be able to show, not only that the statute is
invalid, but that he has sustained or is immediately in danger of sustaining
some direct injury as the result of its enforcement . . . .” Commonwealth of
Massachusetts v. Mellon, 262 U.S. 447, 488 (1923). If relief is warranted, “the
court enjoins, in effect, not the execution of the statute, but the acts of the
official, the statute notwithstanding.” Id.; see also United States v. Sineneng-

17

Smith, 140 S. Ct. 1575, 1585-86 (2020) (Thomas, J., concurring); cf. Collins, 141
S. Ct. at 1779.
In this case, however, Applicants’ alleged injuries flow from the existence
of the law and its potential use by unidentified private parties, not any
enforcement by the State Agency Defendants. As a result, the Court cannot
enjoin “the execution of the statute,” much less “the acts of [any] official,”
because none of the defendants executes SB 8. Mellon, 262 U.S. at 488. In
substance, Applicants ask this Court “to review and annul” SB 8 “on the
ground that [it is] unconstitutional.” Id. “To do so would be, not to decide a
judicial controversy, but to assume a position of authority over the
governmental acts of [a sovereign State], an authority which plainly [federal
courts] do not possess.” Id. at 488-89.
The Fifth Circuit has considered these issues in great detail over the
years. See, e.g., City of Austin v. Paxton, 943 F.3d 993, 997-1003 (5th Cir.
2019); Okpalobi v. Foster, 244 F.3d 405, 411-24 (5th Cir. 2001) (en banc)
(plurality op.). So have other courts of appeals. See, e.g., Church v. Missouri,
913 F.3d 736, 747-48 (8th Cir. 2019); McBurney v. Cuccinelli, 616 F.3d 393,
399-402 (4th Cir. 2010); Children’s Healthcare is a Legal Duty, Inc. v. Deters,
92 F.3d 1412, 1414-18 (6th Cir. 1996). But Applicants would have this Court
casually cast aside decades of well-reasoned circuit precedent without even
briefing on the merits. The Court should decline that invitation.

18

C. 42 U.S.C. Section 1983 Bars Injunctive Relief Against Judge
Jackson and Ms. Clarkston.

Even if the Court perceived an urgent need to reconsider the full scope of
Ex parte Young, this would be a poor vehicle to do so because the Federal
Courts Improvement Act of 1996, Pub. L. No. 104-317, amended section 1983
to provide that “in any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief was
unavailable.” This case, brought against judicial officers in their judicial
capacity runs afoul of this provision. Applicants insist to the contrary, that:
(1) declaratory relief is unavailable because they were unable to get it on an
emergency basis, and (2) the term “judicial officer” in section 1983 does not
apply to Ms. Clarkston. Applicants are wrong on both counts.
1.

Declaratory relief is available for Applicants’ claim.

“[Applicants] cannot allege that declaratory relief is unavailable because
[they] can, and indeed have, pursued a claim seeking a declaration.” ODonnell
v. Harris County, 251 F. Supp. 3d 1052, 1156 (S.D. Tex. 2017), aff’d as
modified, 882 F.3d 528 (5th Cir. 2018) (quoting MacPherson v. Town of
Southampton, 664 F. Supp. 2d 203, 211-12 (E.D.N.Y. 2009)); Supp.App.2, 8, 36,
38, 46-47. Applicants’ claim for declaratory relief fails on its merits, but that
does not mean it is “unavailable.”
Applicants can cite no authority that they may obtain injunctive relief in
direct defiance of section 1983 as a stopgap until they can obtain declaratory

19

relief via final judgment—because that is wrong. To satisfy section 1983,
declaratory relief is “unavailable when as a matter of law no cause of action for
declaratory relief is provided by statute.” ODonnell, 251 F. Supp. 3d at 1156.
Temporary unavailability is not enough. Indeed, “[a] merely temporal
unavailability of declaratory relief in this case would defeat Congress’s
purpose in amending § 1983 to prohibit injunctive relief against judges except
in extraordinary cases of recalcitrance against clearly defined court
declarations.” Id. at 1155 n.118 (citing S. Rep. No. 104-66 at 36-37 (1996) (“This
section restores the doctrine of judicial immunity to the status it occupied prior
to the Supreme Court’s decision” in Pulliam v. Allen, 466 U.S. 522 (1984))).
2.

The phrase “judicial officer” includes all judicial officers
acting in an adjudicative capacity—not just judges.

a. Plaintiffs are also wrong to contend that section 1983’s prohibition on
injunctive relief against “judicial officers” excludes Ms. Clarkston because she
is a clerk. As an initial matter, under Texas law, clerks are judicial officers:
“[t]he district clerk must take and sign the oath prescribed for officers of this
state.” Tex. Gov’t Code § 51.302 (emphasis added). Texas law provides that
district clerks, like Ms. Clarkston, undertake “official acts” on behalf of the
court. Id. at § 51.301(d) (“Each district clerk shall be provided with a seal for
the district court. . . . The seal shall be impressed on all process issued by the
court except subpoenas and shall be kept and used by the clerk to authenticate
official acts.” (emphasis added)).

20

b. But even if Ms. Clarkston were not a “judicial officer” in her own right,
she still qualifies as one because she acts on behalf of judges, who are
indisputably “judicial officers.” Lower federal courts have long recognized
that, in Texas, “[t]he clerks of court are also entitled to immunity the same as
judges when performing their duties.” Zimmerman v. Spears, 428 F. Supp.
759, 762 (W.D. Tex.), aff’d, 565 F.2d 310 (5th Cir. 1977); see also Willis v. Shaw,
186 F.R.D. 358, 361 (E.D. Tex. 1999). And they have long extended absolute
judicial immunity to court clerks for “acts they are specifically required to do
under court order or at a judge’s discretion.” Kastner v. Lawrence, 390 F.
App’x 311, 315 (5th Cir. 2010) (quoting Clay v. Allen, 242 F.3d 679, 682 (5th
Cir. 2001) (quoting Tarter v. Hury, 646 F.2d 1010, 1013 (5th Cir. 1981))).
“Issuing process” is one such task. Id. Texas courts agree. See, e.g., Thompson
v. Coleman, No. 01-01-00114-CV, 2002 WL 1340314, at *5 (Tex. App.—
Houston [1st Dist.] June 20, 2002, pet. denied); Spencer v. City of Seagoville,
700 S.W.2d 953, 958-59 (Tex. App.—Dallas 1985, no writ)).
Applicants cannot dispute that the acts they seek to prevent Ms. Clarkston
from committing—docketing SB 8 enforcement cases and issuing citation—
are acts she does at the direction of judges. District clerks act under authority
of the Texas Rules of Civil Procedure, which are promulgated by the Texas
Supreme Court. See Tex. Gov’t Code § 22.004. The Texas Rules of Civil
Procedure are what require a civil action to be commenced by a petition filed
with the clerk, who “shall” document the filing. Tex. R. Civ. P. 22, 24. They also
require that “[u]pon the filing of the petition, the clerk, when requested, shall
21

forthwith issue a citation and deliver the citation as directed by the requesting
party.” Tex. R. Civ. P. 99(a). The contents of the citation the clerk “shall” issue
upon request are also prescribed by the Rules. Tex. R. Civ. P. 99(b), 99(c). “[I]n
the absence of specific instructions from a “‘judicial officer,’ the clerk of court
lacks authority to refuse or to strike a pleading presented for filing.”
McClellon v. Lone Star Gas Co., 66 F.3d 98, 102 (5th Cir. 1995).
If district clerks are not acting directly under the Texas Rules of Civil
Procedure, they are acting under the local rules of the District Court. These
are promulgated by the judges of the District Court and the County Courts at
Law and approved by the Texas Supreme Court. See Tex. R. Civ. P. 3(a); see
also, e.g., Local Smith Cty. R. of Civ. Trial, https://www.smithcounty.com/government/courts/local-rules-of-civil-trial.
As the Fifth Circuit concluded in holding judges and clerks were
inappropriate defendants in an action challenging a law’s constitutionality,
“[b]ecause of the judicial nature of their responsibility, the chancery clerks
and judges do not have a sufficiently ‘personal stake in the outcome of the
controversy . . .’” Wallace, 646 F.2d at 160 (emphasis added) (quoting Baker,
369 U.S. at 204). Thus, because the actions Applicants seek to enjoin Ms.
Clarkston from taking are done at the direction of judges, including Judge
Jackson, she may not be enjoined under section 1983.
c. Injunctive relief against Ms. Clarkston is particularly problematic
because “a state official cannot be enjoined to act in any way that is beyond his
authority to act in the first place.” Okpalobi, 244 F.3d at 427. A court clerk is
22

not responsible for judging the merits of a lawsuit. See Tex. Const. art. V, § 9;
Tex. Gov’t Code § 51.303; Tex. R. Civ. P. 22-26. A court clerk like Ms. Clarkston
does not have the authority to reject petitions, even when the filing is frivolous,
harassing, improper, malicious, or based on an unconstitutional statute. Tex.
R. Civ. P. 22-26 (using the mandatory term “shall”); see also McClellon, 66
F.3d at 102. Granting Applicants’ requested relief against Ms. Clarkston would
require her—a non-lawyer—to do something she otherwise never does:
evaluate the legal basis for every single case filed in Smith County so that she
can root out and reject any lawsuits filed under SB 8. Such relief would require
her to exceed her responsibilities as an elected official under state law—
essentially requiring her to violate state law by acting ultra vires. A federal
court has no power to command that. Okpalobi, 244 F.3d at 427; see also
Larson v. Domestic & Foreign Commerce Corp., 337 U.S. 682, 691 n.11 (1949)
(“[A] suit may fail, as one against the sovereign . . . if the relief requested
cannot be granted by merely ordering the cessation of the conduct complained
of but will require affirmative action by the sovereign.”).
Moreover, Applicants’ requested relief “would disrupt the normal course
of proceedings in the state courts” and “would constitute a form of monitoring
of the operation of state court functions that is antipathetic to established
principles of comity.” O’ Shea v. Littleton, 414 U.S. 488, 501 (1974). Nor may a
federal court instruct Ms. Clarkston that her official duties under State law
include rooting out and rejecting SB 8 lawsuits. Pennhurst State Sch., 465
U.S. at 106.
23

*

*

*

In sum, because none of the Governmental Defendants enforce SB 8 within
the meaning of this Court’s jurisprudence, Applicants lack standing to sue
them, and their claims run afoul of sovereign immunity. Moreover, because
alternative remedies are available, they cannot pursue injunctive relief against
the State Court Defendants.

II. Applicants Have Not Shown Irreparable Harm.
Applicants assert that, without an injunction, they will face a litany of
harms: they will be subject to endless lawsuits, they will be too afraid to
perform abortions in the State, and abortions would be “decimated.” Appl. 6.
But (1) the requested injunctive relief will not prevent the harms they fear,
(2) the claimed emergency is largely one of Applicants’ own making, and
(3) the injunction they seek is overbroad and so vague as to be impossible to
implement in any meaningful manner. Moreover, Applicants can continue to
litigate their challenge below, so injunctive relief is not necessary to aid the
Court’s jurisdiction. See Hobby Lobby Stores, Inc. v. Sebelius, 568 U.S. 1401,
1404 (2012) (Sotomayor, J., in chambers) (denying request for injunction when
applicants could continue their legal challenge in the lower courts because
“while the applicants allege they will face irreparable harm . . . they cannot
show that an injunction is necessary or appropriate to aid our jurisdiction”).

24

A. Enjoining Respondents will not remedy Applicants’ alleged
injury.

One thing is clear from their application: Applicants do not wish to be sued
in Texas state courts, so they have asked this Court for a vague injunction to
“enjoin enforcement of SB 8.” Appl. at 38. But the Court does not enjoin laws—
it enjoins parties. For the reasons discussed above, holding otherwise would
be contrary to Ex parte Young’s prohibition on simply suing a state official as
a representative of the State to test the constitutionality of its law. 209 U.S. at
157.
And enjoining the parties sued by Applicants will not remedy their claimed
injury. Applicants seek to enjoin (1) certain state agencies from “collaterally”
enforcing SB 8 at some unknown point in the future, (2) a single judge from
hearing lawsuits brought in his court under SB 8, (3) a single court clerk from
docketing lawsuits brought in her court under SB 8, and (4) a single private
citizen from filing any lawsuit against them under SB 8, even though he
already said he would not. [CITE] Even if this Court gave Applicants
everything they asked for, Applicants could still face lawsuits in Texas state
courts. And those private civil actions are the real basis for Applicants’ alleged
injury.
Applicants’ application repeatedly notes that SB 8 precludes enforcement
by government officials but is instead enforced through private lawsuits. Appl.
at 2, 7. Applicants then assert that the threat of those private lawsuits and
potentially defending them is what will cause their harm. Appl. at 8 (claiming

25

“the threat of unlimited lawsuits against them will prevent them” from
performing abortions), 20 (complaining of the time and resources needed to
litigate any private lawsuits). But the parties and claims that Applicants have
brought to this Court do not permit the Court to enjoin all citizens in Texas
from filing suit under SB 8. Thus, granting the only relief Applicants have
sought will not prevent the private lawsuits that Applicants fear.

B. The alleged prejudice is of Applicants’ own making.
Applicants’ conduct is inconsistent with their present claims of impending
doom. That the Texas Legislature was considering a major change to abortion
regulation has been widely discussed since at least early 2021.2 SB 8 was
originally filed with the Texas State Legislature and Secretary of State on
March 11. Actions: SB8, Texas Legislature Online (last visited Aug. 31, 2021),
https://tinyurl.com/k3hhp83s. SB 8’s. It was sent to the Governor or May 14
and signed on May 19. Id. The September 1 effective date is clear on its face.
SB 8 § 12. But even before then, Applicants were aware of it—Applicants’
counsel noted the bill on its website in March of 2021, 3 and the executive

E.g., Shannon Najmabadi, Republican lawmakers push to make Texas’
anti-abortion laws among the most restrictive in the nation, Tex. Tribune
(Feb. 1, 2021), https://tinyurl.com/bv8f5kr3.
2

Center for Reproductive Rights, Texas lawmakers push bill to make it
easier to sue abortion providers and harder for new anti-abortion laws to be
blocked by courts (March 18, 2021), https://reproductiverights.org/texaslawmakers-push-bill-to-make-it-easier-to-sue-abortion-providers-andharder-for-new-anti-abortion-laws-to-be-blocked-by-courts/
3

26

director of one of the Applicant abortion-funding organizations provided
testimony on the bill in March. 4
Yet Applicants did not seek a preliminary injunction until the September
1 effective date was less than a month away. (Indeed, they did not even file
their lawsuit until two months after the bill was signed into law. See
Supp.App.1)
And it should not have come as a surprise when Respondents took an
interlocutory appeal of the district court’s denial of sovereign immunity. That
is hardly an “unusual procedural posture,” as Applicants claim (at 16). To the
contrary, it has long been clear both that a sovereign immunity defense can be
immediately appealed, P.R. Aqueduct, 506 U.S. at 144, and that “[t]he filing of
a notice of appeal . . . divests the district court of its control over those aspects
of the case involved in the appeal,” Griggs v. Provident Consumer Disc. Co.,
459 U.S. 56, 58 (1982). Indeed, interlocutory appeals from a denial of sovereign
immunity are commonplace. See, e.g., Tennessee v. Lane, 541 U.S. 509 (2004);
Seminole Tribe of Florida v. Florida, 517 U.S. 44 (1996); P.R. Aqueduct, 506
U.S. 139.
In light of these well-established principles, Applicants should have
accounted for jurisdictional defenses—and the possibility of interlocutory
appeal. “[S]elf-inflicted wounds are not irreparable injury. Only the injury
https://capitol.texas.gov/tlodocs/87R/witlistbill/html/SB00008S.htm
(noting Rosann Mariappuram of Applicant Jane’s Due Process provided
written testimony)
4

27

inflicted by one’s adversary counts for this purpose.” Second City Music, Inc.
v. City of Chicago, 333 F.3d 846, 850 (7th Cir. 2003); see also, e.g. Texas v.
Biden, No. 21-10806, 2021 WL 3674780, at *14 (5th Cir. Aug. 19, 2021) (per
curiam) (citing 11A Charles Alan Wright, et al., Federal Practice and
Procedure § 2948.1 (2021)); accord Biden v. Texas, No. 21A21, 2021 WL
3732667 (U.S. Aug. 24, 2021).

C. Applicants’ requested injunction is overbroad.
Applicants’ request that the Court “issue an injunction preventing
enforcement of SB 8” (Appl. at 3) is also overbroad. SB 8 contains numerous
provisions that Applicants do not claim will cause them irreparable harm if
allowed to go into effect. For example, Applicants have brought claims against
SB 8 section 4, which creates a fee-shifting provision for challenges to abortion
laws. Tex. Civ. Prac. & Rem. Code § 30.022 (effective Sept. 1, 2021). Applicants
offer this Court no argument that they would suffer irreparable harm if this
provision were to take effect on September 1.
Likewise for SB 8’s requirement that a doctor check for a fetal heartbeat
prior to performing an abortion. Tex. Health & Safety Code § 171.203(b)
(effective Sept. 1, 2021). For the past ten years, Texas law has required
physicians to perform a sonogram and make the heartbeat audible before
inducing an abortion. Id. § 171.012(a)(4)(D); see Tex. Med. Providers
Performing Abortion Servs. v. Lakey, 667 F.3d 570, 579 (5th Cir. 2012)
(rejecting constitutional challenge to informed consent law, including its
sonogram requirement). That law has not been challenged here, and
28

Applicants have put on no evidence that checking for a heartbeat is an undue
burden on a women’s ability to obtain an abortion. And other portions of SB 8
merely require certain recordkeeping when an abortion is performed due to a
“medical emergency.” SB 8 §§ 7, 9. Again, Applicants do not explain why they
need emergency relief from these recordkeeping requirements. 5 And SB 8
applies to abortions performed after 20 weeks’ post-fertilization age and to
partial-birth abortions, which are already prohibited by Texas laws Applicants
do not challenge here. See Tex. Health & Safety Code §§ 171.044; 171.102.
Applicants’ lack of clarity about the relief they need underscores the
enormity of their request. Any “order granting an injunction” is required to
“state its terms specifically” and “describe in reasonable detail—and not by
referring to the complaint or other document—the act or acts restrained or
required.” Fed. R. Civ. P. 65(d)(1). Yet Applicants never say what exactly each
Respondent should be restrained from doing or required to do. For example,
Judge Jackson and Ms. Clarkston undisputedly have state-law duties related
to processing and adjudicating lawsuits, but Applicants do not say what they

Applicants also make no mention of their equal-protection, First
Amendment, and “preemption” claims or explain why those claims require
emergency injunctive relief. Regardless, the Court has held that “[a]bortion is
inherently different from other medical procedures” because it involves “the
purposeful termination of potential life,” Harris v. McRae, 448 U.S. 297, 325
(1980); SB 8 explicitly precludes application to protected First Amendment
activity, Tex. Health & Safety Code § 171.208(g) (effective Sept. 1, 2021); and
“preemption” is not a cause of action, Armstrong v. Exceptional Child Ctr.,
Inc., 575 U.S. 320, 324-25 (2015).
5

29

are supposed to do if someone files a private lawsuit under SB 8 in Smith
County.
All Applicants say (at 38) is that the Court should “enjoin enforcement of
SB 8.” But, as detailed above, it is not that simple. Courts do not enjoin
statutes, they enjoin parties. See supra at 8. And Applicants have no plausible
theory why an injunction can or should issue against these defendants.

III. Respondents Will Be Irreparably Harmed if Subjected to an
Injunction Pending Appeal.

If any party is facing irreparable injury in this application, it is
Respondents, along with the State they serve and its people. “[A]ny time a
State is enjoined by a court from effectuating statutes enacted by
representatives of its people, it suffers a form of irreparable injury.” New
Motor Vehicle Bd. of Cal. v. Orrin W. Fox Co., 434 U.S. 1345, 1351 (1977)
(Rehnquist, J., in chambers); see also Maryland v. King, 567 U.S. 1301, 1303
(2012) (Robert, C.J., in chambers). That is what Applicants ask this Court to
do.
That harm is particularly acute where the requested injunction is directed
at a state court. “[A]n injunction against a state court would be a violation of
the whole scheme of our government.” Ex parte Young, 209 U.S. at 163; see
also O’Shea v. Littleton, 414 U.S. 488, 500 (1974) (rejecting a request for an
“ongoing federal audit of state criminal proceedings” in suit against state
judges). Such “monitoring of the operation of state court functions . . . is
antipathetic to established principles of comity,” O’Shea, 414 U.S. at 501, and
30

offends principles of federalism, see Ballard v. Wilson, 856 F.2d 1568, 1570
(5th Cir. 1988) (citing O’Shea, 414 U.S. 488); see also Parker v. Turner, 626
F.2d 1, 9 (6th Cir. 1980) (declining to issue injunction that would require
monitoring state judges’ conduct). Applicants ask this Court to enjoin Ms.
Clarkston from performing her state law duties to file petitions, issue citations,
and the like. As to Judge Jackson, Applicants seemingly want this Court to
direct state judges how to decide SB 8 lawsuits filed in their courts. Such
interference in the State judiciary would irreparably harm Texas and its
courts.
Further, Judge Jackson and Ms. Clarkston’s continued involvement as
defendants in the case raises an ethical dilemma. Canon 3(B)(10) of the Texas
Code of Judicial Ethics states:
A judge shall abstain from public comment about a pending or
impending proceeding which may come before the judge’s court in a
manner which suggests to a reasonable person the judge’s probable
decision on any particular case.”6
Although this section exempts judges who are serving as litigants in their
personal capacity,7 it may apply to judges who are litigants in their official
capacities. The Code also requires judges to ensure that court staff, including
clerks, abide by this requirement as well. See id. (“A judge shall require similar

Available at https://www.txcourts.gov/media/1452409/texas-code-ofjudicial-conduct.pdf.
6.

See id. (“This section does not apply to proceedings in which the judge or
judicial candidate is a litigant in a personal capacity.”).
7.

31

abstention on the part of court personnel subject to the judge’s direction and
control.”)
Judge Jackson and Ms. Clarkston have been placed in an untenable
position by plaintiffs’ lawsuit. Although no SB 8 private enforcement actions
are presently pending or impending, they must be cognizant of their ethical
obligations. If they refuse to defend the merits of the law because SB 8
litigation may be brought in their court (as Judge Jackson has thus far done),
they risk liability for costs and attorneys’ fees. But if they defend the claims
against them on the merits, they must step out of their role of neutral arbiter
of law. This is precisely why courts have long held that judges and clerks are
not proper defendants under section 1983 as discussed above. Regardless,
plaintiffs’ requested relief and continued litigation against Judge Jackson and
Ms. Clarkston in challenging the constitutionality of SB 8 threatens to do harm
to the impartiality and neutrality of the Texas judiciary.
Because Applicants have not shown an undisputedly clear right to relief or
likelihood of irreparable harm, they are not entitled to an injunction pending
appeal. Biden, No. 21A21, 2021 WL 3732667. That conclusion is further
underscored by the harm that Respondents will face if that relief is granted.

IV. The Court Should Reject Applicants’ Requests for Alternative Forms
of Relief.

The Court should also reject the ancillary forms of relief included in the
application. The application process in this Court is designed to remedy

32

immediate, otherwise irreparable harm—not to require this Court to
superintend the management of the district court’s docket.

A. The Court should not vacate the district court stays.
As an alternative argument, Applicants ask the Court to vacate (1) the
Fifth Circuit’s administrative stay regarding their claims against Mr. Dickson,
and (2) the district court’s decision to vacate the preliminary injunction
hearing in response to the divestiture of jurisdiction after Respondents filed
their notice of appeal. Appl. at 27-36.
1. The Fifth Circuit did not abuse its discretion by issuing an
administrative stay regarding the preliminary-injunction proceeding as to
Dickson so it can consider Applicants’ and Dickson’s jurisdictional arguments.
App.5. It ordered expedited briefing that was completed this morning. App.5.8
There is no reason to think the Fifth Circuit panel will not act quickly, either
granting Applicants’ motion to dismiss Dickson’s appeal and lifting the
administrative stay or denying Applicants’ motion to dismiss and ordering a
stay of further district court proceedings pending appeal. Even so, Applicants
have not shown irreparable harm from their inability to presently enjoin
Dickson—a single individual who already stated he had no intention of suing

Contrary to Applicants’ repeated assertions (e.g., at 3, 5, 14), the Fifth
Circuit has not flatly refused to expedite the appeal. It refused to order
Respondents to brief their sovereign immunity arguments on the merits in
less than 24 hours and decide the case in 72 hours, which is what Applicants
requested. Given the significance of the questions that Applicants insist this
case presents, there is nothing unreasonable about that.
8

33

Applicants under SB 8. Other private parties would not be bound by such an
injunction. See Osborn v. Bank of U.S., 22 U.S. 738, 802 (1824) (“An injunction
binds no person but the parties to the suit.”). And, as explained supra __,
preventing a single person from filing private enforcement actions against
Applicants will not prevent the “ruinous” liability they allege will follow from
other persons’ lawsuits.
B. The Fifth Circuit did not err in denying Applicants’ request to vacate
the district court’s decision to cancel the preliminary injunction hearing as to
the Governmental Defendants. As an initial matter, Applicants have not
appealed the district court’s order, so there is no appellate jurisdiction to
consider whether the district court erred. See Fed. R. App. P. 4; Manrique v.
United States, 137 S. Ct. 1266, 1271 (2017) (“To secure appellate review of a
judgment or order, a party must file a notice of appeal from that judgment or
order.”). If Applicants disagree with the district court’s management of its
docket, they can file a petition for mandamus in the Fifth Circuit, as two of the
defendants did earlier in this case. But the only order currently on appeal is
the denial of Respondents’ motions to dismiss.
Regardless, the district court’s decision to cancel the preliminaryinjunction hearing was undoubtedly correct. The district court properly
recognized that “[t]he filing of a notice of appeal . . . confers jurisdiction on the
court of appeals and divests the district court of its control over those aspects
of the case involved in the appeal.” Griggs, 459 U.S. at 58. The “aspect[] of the
case involved in the appeal” here is sovereign immunity, which calls into
34

question the very existence of the lawsuit in the first place and prohibits
further proceedings until that question is resolved. See Apostol v. Gallion, 870
F.2d 1335, 1338 (7th Cir. 1989) (“It makes no sense for trial to go forward while
the court of appeals cogitates on whether there should be one.”). Canceling the
preliminary-injunction hearing in these circumstances was the only correct
action the district court could take. See, e.g., Price v. Dunn, 139 S. Ct. 1533,
1537 (2019) (Thomas, J., concurring in the denial of certiorari) (explaining that
the district court “manifestly lacked jurisdiction” to grant a preliminary
injunction when a case had been appealed).
The “ultimate justification” for allowing interlocutory appeal from a denial
of sovereign immunity “is the importance of ensuring that the States’ dignitary
interests can be fully vindicated.” P.R. Aqueduct & Sewer Auth. v. Metcalf &
Eddy, Inc., 506 U.S. 139, 146 (1993). Permitting a State to be enjoined in
preliminary-injunction proceedings while the question of its immunity is on
appeal defeats the very purpose of permitting interlocutory appeal of
immunity issues. See 16A Fed. Prac. & Proc., supra, at § 3949.1 (“[I]f further
district court proceedings would violate the very right being asserted in the
appeal taken under the collateral order doctrine—as is the case with claims of
qualified immunity or double jeopardy—then the pendency of the appeal does
oust the district court of authority to proceed.”). Applicants’ raise four
arguments to the contrary. None has merit.
First, Applicants first say (at 29-30) that courts can issue orders to
preserve the status quo even while a case is on appeal. But the Rule they rely
35

on, Federal Rule of Civil Procedure 62(d), permits district-court injunctive
relief only when the order being appealed grants or denies an injunction. See
also Haw. Hous. Auth. v. Midkiff, 463 U.S. 1323, 1324 (1983) (Rehnquist, J.,
in chambers) (citing Fed. R. Civ. P. 62). The district court here has not ruled
on Applicants’ request for injunctive relief, so it cannot grant that request once
the case has been appealed.
Second, they argue (at 30-31) that the divestiture rule is judge-made, so it
can be changed by the Court in order to promote efficiency. But that would
create an exception that swallows the rule of Puerto Rico Aqueduct. It is
undoubtedly faster not to stay trial-court proceedings pending appeal of
sovereign-immunity issues, but the States’ dignitary interests would be lost.
Third, Applicants complain (at 31) that the situation would be different if
the district court had waited to rule on jurisdiction and the preliminary
injunction at the same time. While potentially true, that is not what happened.
If Applicants feared this outcome, they could have asked the district court to
decide both issues together. In light of this Court’s longstanding precedent
regarding the jurisdictional significance of a notice of appeal, there is no
reason to think the district court was haplessly caught unawares, as Applicants
imply (at, e.g., 15).
Fourth, the question of whether Applicants are entitled to the relief the
Application seeks does not turn on whether the Court would review a
hypothetical preliminary-injunction ruling (Appl. at 33), but whether the
Court would review the Fifth Circuit’s resolution of the motions to dismiss—
36

the only order currently on appeal. This Court has recently declined the
opportunity to review the Fifth Circuit’s Ex parte Young jurisprudence. See
City of Austin v. Paxton, 141 S. Ct. 1047 (2021) (denying certiorari). And as
demonstrated above, the jurisdictional problems with this case flow from longestablished precedent. It is unlikely the Court would grant certiorari to review
them.
The only way this Court could order the district court to proceed with the
preliminary-injunction hearing would be to create an abortion-specific
exception to the general rules regarding divestiture of jurisdiction and
interlocutory appeals of sovereign immunity. The district court and Fifth
Circuit have declined to do so. This Court should also deny Applicants’
extraordinary request.

B. The Court should not vacate the denial of respondents’ motions to
dismiss solely so Applicants can seek injunctive relief.

In a last-ditch attempt to obtain some form of injunctive relief, Applicants
ask this Court to vacate the district court’s order in their favor denying
Respondents’ motions to dismiss—so the Fifth Circuit can declare the appeal
moot, and the district court can proceed to a preliminary-injunction hearing.
Appl. at 36-37. A Circuit Justice lacks the authority to vacate a lower court
ruling. See Blodgett v. Campbell, 508 U.S. 1301, 1303-04 (1993) (O’Connor, J.,
in chambers) (stating that a Circuit Justice’s authority is “limited to providing
or vacating stays and other temporary relief”). Regardless, the Court should
not engage in such fiction. And Applicants’ theory that Respondents would
37

suffer no injury from returning to district court in order to be enjoined in a
case in which the court lacks jurisdiction over them blinks reality.
C ONCLUSION
The Court should deny the application for injunction pending appeal or,
alternatively, to vacate the stays of district court proceedings.
HEATHER GEBELIN HACKER
Counsel of Record
ANDREW B. STEPHENS
Hacker Stephens LLP
108 Wild Basin Road South, Suite 250
Austin, Texas 78746
Tel.: (512) 399-3022
heather@hackerstephens.com

KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant Attorney General
JUDD E. STONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy Solicitor General

Counsel for Respondent Clarkston

NATALIE D. THOMPSON
BETH KLUSMANN
Assistant Solicitors General
Office of the Texas Attorney
General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
Counsel for Respondents Jackson,
Carlton, Thomas, Young, Benz,
and Paxton

38

SUPPLEMENTAL APPENDIX

Supplemental Appendix
Table of Contents
Plaintiffs’ Complaint for Declaratory and Injunctive Relief ..............................1
Declaration of Lesley French Henneke ..............................................................50

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 1 of 49

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN’S HEALTH, on behalf of itself, its
staff, physicians, nurses, and patients; ALAMO CITY
SURGERY CENTER PLLC d/b/a ALAMO WOMEN’S
REPRODUCTIVE SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; BROOKSIDE WOMEN’S
MEDICAL CENTER PA d/b/a BROOKSIDE WOMEN’S
HEALTH CENTER AND AUSTIN WOMEN’S HEALTH
CENTER, on behalf of itself, its staff, physicians, nurses,
and patients; HOUSTON WOMEN’S CLINIC, on behalf of
itself, its staff, physicians, nurses, and patients; HOUSTON
WOMEN’S REPRODUCTIVE SERVICES, on behalf of
itself, its staff, physicians, nurses, and patients; PLANNED
PARENTHOOD CENTER FOR CHOICE, on behalf of
itself, its staff, physicians, nurses, and patients; PLANNED
PARENTHOOD OF GREATER TEXAS SURGICAL
HEALTH SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD SOUTH TEXAS SURGICAL CENTER,
on behalf of itself, its staff, physicians, nurses, and patients;
SOUTHWESTERN WOMEN’S SURGERY CENTER, on
behalf of itself, its staff, physicians, nurses, and patients;
WHOLE WOMAN’S HEALTH ALLIANCE, on behalf of
itself, its staff, physicians, nurses, and patients; ALLISON
GILBERT, M.D., on behalf of herself and her patients;
BHAVIK KUMAR, M.D., on behalf of himself and his
patients; THE AFIYA CENTER, on behalf of itself and its
staff; FRONTERA FUND, on behalf of itself and its staff;
FUND TEXAS CHOICE, on behalf of itself and its staff;
JANE’S DUE PROCESS, on behalf of itself and its staff;
LILITH FUND, on behalf of itself and its staff; NORTH
TEXAS EQUAL ACCESS FUND, on behalf of itself and
its staff; REVEREND ERIKA FORBES; REVEREND
DANIEL KANTER; and MARVA SADLER,

Civil Action No. 21-cv-616 ________

Plaintiffs,
v.
AUSTIN REEVE JACKSON, in his official capacity as
Judge of the 114th District Court, and on behalf of a class of
all Texas judges similarly situated; PENNY CLARKSTON,

SuppApp.1

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 2 of 49

in her official capacity as Clerk for the District Court of
Smith County, and on behalf of a class of all Texas court
clerks similarly situated; MARK LEE DICKSON;
STEPHEN BRINT CARLTON, in his official capacity as
Executive Director of the Texas Medical Board;
KATHERINE A. THOMAS, in her official capacity as
Executive Director of the Texas Board of Nursing; CECILE
ERWIN YOUNG, in her official capacity as Executive
Commissioner of the Texas Health and Human Services
Commission; ALLISON VORDENBAUMEN BENZ, in her
official capacity as Executive Director of the Texas Board
of Pharmacy; and KEN PAXTON, in his official capacity as
Attorney General of Texas,
Defendants.
COMPLAINT FOR DECLARATORY AND INJUNCTIVE RELIEF — CLASS ACTION
INTRODUCTION
1.

The Texas Legislature’s well-documented hostility to the rights of pregnant people

has gone to a new extreme. This lawsuit is brought under 42 U.S.C. § 1983 to challenge Texas
Senate Bill 8, 87th Leg., Reg. Sess. (Tex. 2021) (“S.B. 8” or “the Act”), which flagrantly violates
the constitutional rights of Texans seeking abortion and upends the rule of law in service of an
anti-abortion agenda. If this attempt to strip Texans of their federal constitutional rights is not
blocked, then any state could similarly subvert the federal constitutional rights of a group
disfavored in that state. For this and many other reasons, S.B. 8 must be declared unconstitutional
and enjoined.
2.

S.B. 8 bans abortion at approximately six weeks in pregnancy, a point before many

people even know they are pregnant and roughly four months before viability. A copy of S.B. 8,
which is set to take effect on September 1, 2021, is attached as Exhibit 1.
3.

In this respect, S.B. 8 is like other pre-viability abortion bans that states have

adopted in defiance of Roe v. Wade, 410 U.S. 113 (1973), and nearly fifty years of unbroken

2

SuppApp.2

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 3 of 49

precedent. That precedent plainly holds that a state may not prohibit abortion before viability; until
that time, it is for the patient—not the state—to decide whether to continue a pregnancy.
Accordingly, when confronted with the merits of these abortion bans, courts have uniformly
invalidated every state law banning abortion at a point before viability.
4.

The Texas Legislature was well aware that S.B. 8 would stand no chance of taking

effect if a court reviewed it in advance of the law’s September 1 effective date. So the Legislature
attempted to insulate its patently unconstitutional law from judicial review. S.B. 8 purports to bar
government defendants—such as the attorney general, local prosecutors, and the health
department—from directly enforcing the law’s terms. Instead, the Act deputizes private citizens
to enforce the law, allowing “any person” other than government officials to bring a civil lawsuit
against anyone who provides an abortion in violation of the Act, “aids or abets” such an abortion,
or intends to do these things. These civil suits are permitted regardless of whether the person suing
has any connection to the abortion.
5.

If a claimant in an S.B. 8 case prevails, they are entitled to (1) “injunctive relief

sufficient to prevent” future violations; (2) without any showing of harm, an award of “statutory
damages” of at least $10,000 per abortion, with no apparent maximum amount; and (3) their costs
and attorney’s fees. In effect, S.B. 8 places a bounty on people who provide or aid abortions,
inviting random strangers to sue them.
6.

The transparent purpose of S.B. 8’s enforcement scheme was to make it so that

abortion providers and people who assist abortions could not sue government officials for an
injunction to block the law before it takes effect. As the legislative director for Texas Right to Life
(the largest anti-abortion organization in the state) explained during the legislative proceedings,
every six-week ban on abortion adopted by other states “has been enjoined or had at least some

3

SuppApp.3

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 4 of 49

negative court action,” and “it’s because of the [government] enforcement mechanism[]” provided
for in those laws.1 He later added that some people in the anti-abortion movement thought that the
approach taken by other states “was not working in federal court, so let’s try a different route.”2 In
adopting S.B. 8, the Legislature believed that it could be the exception to the rule by setting
vigilantes loose to enforce its unconstitutional abortion ban.
7.

S.B. 8 also commandeers the state’s courts to help enforce the ban. At every turn,

S.B. 8 purports to replace normal civil-litigation rules and clearly established federal constitutional
rules with distorted versions designed to maximize the abusive and harassing nature of the lawsuits
and to make them impossible to fairly defend against. For example, S.B. 8 provides that persons
sued under the Act could be forced into any of Texas’s 254 counties to defend themselves, so long
as at least one vigilante there is willing to bring suit, and it prohibits transfer of the cases to any
other venue without the parties’ joint agreement. S.B. 8 also states that a person sued under the
Act may not point to the fact that the claimant already lost an S.B. 8 lawsuit against someone else
on equally applicable grounds or that a court order permitted an abortion provider’s conduct at the
time when it occurred, if that court order was later overruled.
8.

If not blocked, S.B. 8 will force abortion providers and others who are sued to spend

massive amounts of time and money to defend themselves in lawsuits across the state in which the
deck is heavily stacked against them. Even if abortion providers and others sued in S.B. 8 lawsuits
ultimately prevail in them—as they should in every case if only they could mount a fair defense—
the lawsuits against them will still have accomplished S.B. 8’s goal of harassment. The suits may

1

Hr’g on S.B. 8 Before the S. Comm. on State Affairs, 87th Leg., Reg. Sess., video at
7:30–45 (Tex. 2021) (statement of John Seago, Leg. Dir. of Tex. Right to Life), available at
https://tlcsenate.granicus.com/MediaPlayer.php?view_id=49&clip_id=15469.
2

Citizens, Not the State, Will Enforce New Abortion Law in Texas, NYTimes.com (July 9,
2021), https://www.nytimes.com/2021/07/09/us/abortion-law-regulations-texas.html.
4

SuppApp.4

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 5 of 49

also bankrupt those who are sued in the process, since S.B. 8 states they cannot recover their
attorney’s fees and costs against the vigilante.
9.

But because S.B. 8 does not, in fact, permit a fair defense, abortion providers and

others targeted by the law must also weigh the risk of ruinous liability and injunctions if they
provide services banned by S.B. 8, get sued, and lose in any one of Texas’s state courts.
10.

Other aspects of S.B. 8 are likewise targeted to chill the exercise of constitutional

rights while systematically isolating abortion patients. Unlike typical aiding-and-abetting
provisions, S.B. 8 targets those it describes as aiders or abettors even if they did not know or have
any reason to know that the abortion they assisted would be deemed unlawful under S.B. 8. A
person weighing whether their activity might prompt a costly S.B. 8 lawsuit for aiding and abetting
must also consider the fact that the law invites enforcement by anyone, no matter how hostile and
untrained in the law. As a result, someone who accompanies her sister to an abortion clinic and
pays for the abortion, or a sexual assault counselor who calls an abortion clinic on behalf of a
patient, could find themselves dragged into a court across the state. And although abortion patients
cannot be sued under S.B. 8, the law provides any abusive partner, controlling parent, or
disapproving neighbor with a ready tool to go after the patient’s doctor for a court order to block
that patient’s abortion choice.
11.

Separate from the six-week abortion ban and its enforcement mechanism, S.B. 8

also imposes a draconian one-way fee-shifting penalty that is designed to deter any challenges,
including meritorious challenges, to state and local abortion restrictions in Texas, not just
challenges to S.B. 8. Under this deterrence provision, civil-rights plaintiffs who challenge any
Texas abortion restriction can be held liable for their opponents’ attorney’s fees and costs unless
they sweep the table by prevailing on every single claim they bring. Parties that defend abortion

5

SuppApp.5

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 6 of 49

restrictions could recover fees, for example, if a court dismisses an abortion provider’s claim as
moot, or rejects one of two claims pleaded in the alternative, and they could do so even if the
challenged abortion restriction was ultimately declared unconstitutional and enjoined. This new
fee-shifting provision purports to apply to civil-rights challenges brought in both federal and state
court and to any causes of action, including to Section 1983 claims that are already subject to a
comprehensive—and diametrically opposed—fee-shifting regime.
12.

To further take aim at civil-rights plaintiffs, even attorneys and law firms who

represent challengers to abortion restrictions can be held jointly and severally liable for the
opponent’s attorney’s fees and costs. If enforceable, S.B. 8 could therefore subject one-person
firms or pro bono counsel to millions of dollars in liability just for making well-founded but
ultimately unsuccessful claims on behalf of a client.
13.

As with the six-week ban, S.B. 8 attempts to ensure that state-court proceedings to

obtain attorney’s fees under this new provision would be hopelessly stacked against abortion
providers and others who attempt to vindicate constitutional rights. S.B. 8 provides that the person
sued for attorney’s fees would be barred from defending on the ground that an earlier court,
including a federal district court in the underlying case, refused to award fees to the claimant, or
held the fee penalty unconstitutional.
14.

If permitted to take effect, S.B. 8 will create absolute chaos in Texas and irreparably

harm Texans in need of abortion services. In particular, the burdens of this cruel law will fall most
heavily on Black, Latinx, and indigenous patients who, because of systemic racism, already
encounter substantial barriers to obtaining health care, and will face particular challenges and
injuries if forced to attempt to seek care out of state or else carry an unwanted pregnancy to term.
S.B. 8 will also cause irreparable harm to Plaintiffs, who are Texas abortion providers and

6

SuppApp.6

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 7 of 49

individuals and organizations who help patients obtain abortions. Accordingly, Plaintiffs bring this
action to challenge S.B. 8 on behalf of themselves; their staff, including physicians, physician
assistants, nurses, and pharmacists; and their patients.
15.

Plaintiffs bring claims challenging the six-week ban and its enforcement scheme

against a putative class of Texas state-court judges who will be called upon to enforce S.B. 8’s
terms; a putative class of Texas court clerks who will participate in the enforcement scheme by, at
a minimum, accepting S.B. 8 enforcement actions for filing and issuing service of process; Mark
Lee Dickson, a private individual deputized to bring S.B. 8 enforcement claims under color of state
law, from whom Plaintiffs face a credible threat of enforcement; and state officials who, despite
S.B. 8’s enforcement restrictions, still have the power to apply S.B. 8 when enforcing other laws
against Plaintiffs, including through disciplinary proceedings.
16.

Plaintiffs also challenge S.B. 8’s new fee-shifting penalty for challenges to abortion

restrictions. Plaintiffs bring claims against the Attorney General and other state officials who have
regularly defended and will continue to defend Texas’s abortion restrictions in court and who
would be permitted under S.B. 8 to recoup attorney’s fees and costs.
17.

At bottom, the question in this case is whether Texas may adopt a law that sets

about to “do precisely that which the [Constitution] forbids.” Terry v. Adams, 345 U.S. 461, 469–
70 (1953) (striking down a Texas law attempting to insulate white-only political primaries from
federal court review).
18.

The answer to that question must be no. Otherwise, states and localities across the

country would have free rein to target federal rights they disfavor. Today it is abortion providers
and those who assist them; tomorrow it might be gun buyers who face liability for every purchase.
Churches could be hauled into far-flung courts to defend their religious practices because someone

7

SuppApp.7

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 8 of 49

somewhere disagrees with them. Same-sex couples could be sued by neighbors for obtaining a
marriage license. And Black families could face lawsuits for enrolling their children in public
schools. It is not hard to imagine how states and municipalities bent on defying federal law and
the federal judiciary could override constitutional rights if S.B. 8 is permitted to take effect.
19.

Plaintiffs urgently need this Court to put a stop to Texas’s brazen defiance of the

rule of law and the federal constitutional rights to which Texans are entitled.
JURISDICTION AND VENUE
20.

The Court has jurisdiction over this action under 28 U.S.C. §§ 1331 and 1343. This

is a civil and constitutional rights action arising under 42 U.S.C. § 1983 and the United States
Constitution.
21.

Plaintiffs’ claims for declaratory and injunctive relief are authorized by 28 U.S.C.

§§ 2201 and 2202, Rules 57 and 65 of the Federal Rules of Civil Procedure, and the general legal
and equitable powers of the Court, including the Court’s inherent authority to enforce the
supremacy of federal law as against contrary state law.
22.

Venue is appropriate in this district under 28 U.S.C § 1391(b) because one or more

of the Defendants resides in this judicial district and because a substantial part of the events or
omissions giving rise to Plaintiffs’ claims occurred in this judicial district.
23.

This case is appropriately filed in the Austin Division because Defendants include

the Executive Director of the Texas Medical Board, the Executive Director of the Texas Board of
Nursing, the Executive Commissioner of the Texas Health and Human Services Commission, the
Executive Director of the Texas Board of Pharmacy, and the Attorney General of Texas, all of
whom maintain offices in this division. Assignment to the Austin Division is also proper because
several Plaintiffs operate health centers in Austin that provide abortions banned by S.B. 8 and

8

SuppApp.8

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 9 of 49

serve abortion patients who reside in the Austin Division and whose rights are violated by the
challenged law.
PLAINTIFFS
24.

Plaintiff Whole Woman’s Health operates licensed abortion facilities in Fort

Worth, McAllen, and McKinney. Whole Woman’s Health provides a range of reproductive health
services, including medication and procedural abortions. The vast majority of abortions that it
provides occur at a point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be
detected. Whole Woman’s Health sues on behalf of itself and its physicians, nurses, other staff,
and patients.
25.

Plaintiff Alamo City Surgery Center PLLC d/b/a Alamo Women’s Reproductive

Services (“Alamo”) operates a licensed ambulatory surgical center in San Antonio. Alamo
provides a range of reproductive health services, including medication and procedural abortions.
The vast majority of abortions that it provides occur at a point in pregnancy when a “fetal
heartbeat,” as defined in S.B. 8, can be detected. Alamo sues on behalf of itself and its physicians,
nurses, pharmacists, other staff, and patients.
26.

Plaintiff Brookside Women’s Medical Center PA d/b/a Brookside Women’s Health

Center and Austin Women’s Health Center (“Austin Women’s”) operates a licensed abortion
facility in Austin. Austin Women’s provides a range of reproductive health services, including
medication and procedural abortions. The vast majority of abortions that it provides occur at a
point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be detected. Austin Women’s
sues on behalf of itself and its physicians, nurses, other staff, and patients.
27.

Plaintiff Houston Women’s Clinic provides medication and procedural abortions

and contraceptive care at its licensed abortion facility in Houston. The vast majority of abortions
that it provides occur at a point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be
9

SuppApp.9

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 10 of 49

detected. Houston Women’s Clinic sues on behalf of itself and its physician, nurses, other staff,
and patients.
28.

Plaintiff Houston Women’s Reproductive Services (“HWRS”) operates a licensed

abortion facility in Houston. HWRS provides medication abortion services. The majority of
abortions that it provides occur at a point in pregnancy when a “fetal heartbeat,” as defined in S.B.
8, can be detected. HWRS sues on behalf of itself and its physicians, nurses, other staff, and
patients.
29.

Plaintiff Planned Parenthood of Greater Texas Surgical Health Services (“PPGT

Surgical Health Services”) is a Texas not-for-profit corporation headquartered in Dallas. It
operates licensed ambulatory surgical centers in Austin, Dallas, and Fort Worth, and licensed
abortion facilities in El Paso, Lubbock, and Waco.3 PPGT Surgical Health Services provides a
range of reproductive health services, including medication and procedural abortions. The vast
majority of abortions that it provides occur at a point in pregnancy when a “fetal heartbeat,” as
defined in S.B. 8, can be detected. PPGT Surgical Health Services sues on behalf of itself and its
physicians, nurses, pharmacists, other staff, and patients.
30.

Plaintiff Planned Parenthood South Texas Surgical Center (“PPST Surgical

Center”), is a not-for-profit corporation headquartered in San Antonio. It operates a licensed
ambulatory surgical center and two licensed abortion facilities in San Antonio. PPST Surgical
Center provides a range of reproductive health services, including medication and procedural

3

The City of Lubbock recently passed an ordinance prohibiting all abortions in the
municipality. That ban is subject to an ongoing legal challenge, and in the meantime, the Lubbock
abortion facility is not currently providing abortion. See Planned Parenthood of Greater Tex.
Surgical Health Servs. v. City of Lubbock, No. 5:21-CV-114-H, 2021 WL 2385110 (N.D. Tex.
June 1, 2021) (dismissing case for lack of jurisdiction), mot. for reconsideration filed (N.D. Tex.
June 29, 2021), ECF No. 51.
10

SuppApp.10

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 11 of 49

abortions. The vast majority of abortions that it provides occur at a point in pregnancy when a
“fetal heartbeat,” as defined in S.B. 8, can be detected. PPST Surgical Center sues on behalf of
itself and its physicians, nurses, pharmacists, other staff, and patients.
31.

Plaintiff Planned Parenthood Center for Choice (“PP Houston”), is a Texas not-for-

profit corporation headquartered in Houston. It operates a licensed ambulatory surgical center in
Houston and a licensed abortion facility in Stafford. PP Houston provides a range of reproductive
health services, including medication and procedural abortions. The vast majority of abortions that
it provides occur at a point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be
detected. PP Houston sues on behalf of itself and its physicians, nurses, pharmacists, other staff,
and patients.
32.

Plaintiff Southwestern Women’s Surgery Center (“Southwestern”) operates a

licensed ambulatory surgical center in Dallas. Southwestern provides a range of reproductive
health services, including medication and procedural abortions. The vast majority of abortions that
it provides occur at a point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be
detected. Southwestern sues on behalf of itself and its physicians, nurses, pharmacists, other staff,
and patients.
33.

Plaintiff Whole Woman’s Health Alliance is a Texas not-for-profit corporation. It

operates a licensed abortion facility in Austin that provides both medication and procedural
abortions. The vast majority of abortions that it provides occur at a point in pregnancy when a
“fetal heartbeat,” as defined in S.B. 8, can be detected. Whole Woman’s Health Alliance sues on
behalf of itself and its physicians, nurses, other staff, and patients.
34.

Plaintiff Allison Gilbert, M.D., is a board-certified obstetrician-gynecologist who

is licensed to practice medicine in Texas. She serves as a physician and Co-Medical Director at

11

SuppApp.11

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 12 of 49

Southwestern, where she provides medication and procedural abortions. The vast majority of
abortions that Dr. Gilbert provides occur at a point in pregnancy when a “fetal heartbeat,” as
defined in S.B. 8, can be detected. She sues on behalf of herself and her patients.
35.

Plaintiff Bhavik Kumar, M.D., is a board-certified family medicine physician who

is licensed to practice medicine in Texas. He serves as a physician at PP Houston, where he
provides medication and procedural abortions. The vast majority of abortions that Dr. Kumar
provides occur at a point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be
detected. He sues on behalf of himself and his patients.
36.

Plaintiffs Whole Woman’s Health, Alamo, Austin Women’s, Houston Women’s

Clinic, HWRS, PPGT Surgical Health Services, PPST Surgical Center, PP Houston, Southwestern,
Whole Woman’s Health Alliance, and Drs. Allison Gilbert and Bhavik Kumar are hereinafter
referred to as the “Provider Plaintiffs” because each provides abortions in Texas that will be
prohibited by S.B. 8 on September 1 absent this Court’s relief.
37.

Plaintiff The Afiya Center is a nonprofit organization incorporated in Texas and

based in Dallas. Its mission is to serve Black women and girls by transforming their relationship
with their sexual and reproductive health by addressing the consequences of reproductive
oppression. The Afiya Center provides financial, practical, and emotional support for abortion
patients and advocates for abortion access. Almost all its clients are at a point in pregnancy when
a “fetal heartbeat,” as defined in S.B. 8, can be detected. The Afiya Center sues on behalf of itself
and its clients.
38.

Plaintiff Frontera Fund is a nonprofit organization incorporated in Texas. Its

mission is to make abortion accessible in the Rio Grande Valley by providing support for abortion
patients regardless of their background and to shift the shame and stigma surrounding abortion

12

SuppApp.12

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 13 of 49

through grassroots organizing. Frontera Fund provides financial, practical, and logistical support
for low-income abortion patients. Almost all its clients are at a point in pregnancy when a “fetal
heartbeat,” as defined in S.B. 8, can be detected. Frontera Fund sues on behalf of itself and its
clients.
39.

Plaintiff Fund Texas Choice is a nonprofit organization incorporated in Texas. Its

mission is to help Texans equitably access abortion through safe, confidential, and comprehensive
practical support. Fund Texas Choice provides practical and logistical support for abortion patients
throughout the state. Almost all its clients are at a point in pregnancy when a “fetal heartbeat,” as
defined in S.B. 8, can be detected. Fund Texas Choice sues on behalf of itself and its clients.
40.

Plaintiff Jane’s Due Process is a nonprofit organization incorporated in Texas and

based in Austin. Its mission is to help ensure that young people in Texas have full reproductive
freedom and autonomy over their healthcare decisions. Jane’s Due Process helps young people
navigate parental-consent laws and confidentially access abortion care in Texas through practical
support, financial assistance, and education. Almost all its clients are at a point in pregnancy when
a “fetal heartbeat,” as defined in S.B. 8, can be detected. Jane’s Due Process sues on behalf of
itself and its clients.
41.

Plaintiff Lilith Fund for Reproductive Equity (“Lilith Fund”) is a nonprofit

organization incorporated in Texas. Its mission is to provide financial assistance and emotional
support for people needing abortions in Texas, foster a positive culture around abortion, and fight
for reproductive justice across the state. Lilith Fund provides financial, emotional, and casemanagement support primarily for abortion patients living in central and southeast Texas. Almost
all its clients are at a point in pregnancy when a “fetal heartbeat,” as defined in S.B. 8, can be
detected. Lilith Fund sues on behalf of itself and its clients.

13

SuppApp.13

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 14 of 49

42.

Plaintiff North Texas Equal Access Fund (“TEA Fund”) is a nonprofit organization

incorporated in Texas and based in Dallas. Its mission is to foster reproductive justice. TEA Fund
provides financial, emotional, and logistical support for low-income abortion patients in northern
Texas. Almost all its clients are at a point in pregnancy when a “fetal heartbeat,” as defined in
S.B. 8, can be detected. TEA Fund sues on behalf of itself and its clients.
43.

Plaintiff Marva Sadler is the Senior Director of Clinical Services with Whole

Woman’s Health and Whole Woman’s Health Alliance. Ms. Sadler oversees clinical operations
for those entities’ Texas clinics and is personally involved in many aspects of patient care.
44.

Plaintiff Reverend Daniel Kanter is an ordained minister who serves as CEO and

Senior Minister of First Unitarian Church in Dallas. He provides pastoral care and confidential
counseling to pregnant people and their families as they make decisions about abortions. Reverend
Kanter also leads the Chaplaincy Program at Southwestern, through which he provides individual
counseling as well as spiritual guidance to clinic patients and their families during their
appointments.
45.

Plaintiff Reverend Erika Forbes is a licensed, ordained minister and trained spiritual

counselor in Dallas. Through her private spiritual counseling practice, she provides religious
guidance and spiritual support for pregnant people who are considering abortion.
46.

The Afiya Center, Frontera Fund, Fund Texas Choice, Jane’s Due Process, Lilith

Fund, TEA Fund, Ms. Sadler, Rev. Kanter, and Rev. Forbes are hereinafter referred to as the
“Advocate Plaintiffs” because they advocate for abortion patients through activities that may be
alleged to aid and abet abortions prohibited by the Act and face a credible threat of enforcement
on that ground.

14

SuppApp.14

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 15 of 49

47.

Plaintiffs are frequently forced to bring Section 1983 suits to challenge abortion

restrictions and similar laws and in some cases do not prevail on all claims. In addition to this case,
they collectively have three Section 1983 cases pending in federal court that challenge abortion
restrictions. See Whole Woman’s Health v. Paxton, 978 F.3d 974 (5th Cir. 2020) (mem.) (en banc)
(including Defendant Paxton); Whole Woman’s Health v. Smith, 338 F. Supp. 3d 606 (W.D. Tex.
2018) (including the Commissioner of the Texas Health and Human Services Commission), appeal
filed, No. 18-50730 (5th Cir. Sept. 7, 2018); PPGTSHS v. City of Lubbock, No. 5:21-CV-114-H,
2021 WL 2385110 (N.D. Tex. June 1, 2021) (dismissing case for lack of jurisdiction), mot. for
reconsideration filed (N.D. Tex. June 29, 2021), ECF No. 51. Plaintiffs have frequently been
forced to protect their interests in other litigation, including state-court litigation, as well. See, e.g.,
Planned Parenthood Ctr. for Choice v. Abbott, 141 S. Ct. 1261 (2021) (mem.) (vacating decisions
regarding Covid-related abortion ban after challenged executive order expired) (including the
Attorney General and Texas licensing authorities as defendants).
DEFENDANTS
48.

Defendant Hon. Austin Reeve Jackson is Judge of the 114th District Court, a court

with jurisdiction over S.B. 8 claims. He is sued in his official capacity and as a representative of a
putative class of all judges in the State of Texas with jurisdiction over the civil actions created by
S.B. 8. He may be served with process at the Smith County Courthouse, 100 N. Broadway, Room
209, Tyler, TX 75702.
49.

Defendant Penny Clarkston is the Clerk for the District Court of Smith County, and

in that role is charged with accepting civil cases for filing and issuing citations for service of
process upon the filing of a civil lawsuit. She is served in her official capacity and as a
representative of a putative class of all court clerks in the State of Texas for courts with jurisdiction

15

SuppApp.15

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 16 of 49

over the civil actions created by the Act. She may be served with process at the Smith County
Courthouse, 100 N. Broadway, Room 204, Tyler, TX 75702.
50.

Defendant Mark Lee Dickson is a resident of Longview, Texas. He serves as the

Director of Right to Life East Texas and has pushed for the adoption of state and local laws that
impose liability on abortion providers and individuals who assist in the provision or obtainment of
constitutionally protected abortion. Mr. Dickson has been deputized to seek enforcement of S.B. 8
against Plaintiffs for providing prohibited abortions, aiding and abetting such abortions, or
intending to do these things. Plaintiffs face a credible threat that he will sue them under S.B. 8 if
they perform or assist in the performance of abortions prohibited by the Act.4 Mr. Dickson is
properly sued under Section 1983 as acting under color of state law. He may be served with process
at 233 E. George Richey Road, Longview, TX 75604-7622.
51.

Defendant Stephen Brint Carlton is the Executive Director of the Texas Medical

Board (“TMB”) and in that capacity serves as the chief executive and administrative officer of
TMB. Tex. Occ. Code § 152.051. TMB must initiate disciplinary action against licensees who
violate any provision of Chapter 171 of the Texas Health and Safety Code. Id. § 165.001; id.
§ 164.055. Section 3 of S.B. 8, which includes the six-week ban and enforcement provisions, and

4

See, e.g., Mark Lee Dickson, Facebook (June 1, 2021, 7:45 AM), https://www.facebook.
com/markleedickson/posts/10159259037629866 (“If abortions do end up being performed this
week or next week or any week thereafter, I will be suing Planned Parenthood for the murder of
unborn children under the provisions allowed in the Lubbock Ordinance Outlawing Abortion.”);
Mark Lee Dickson, Facebook (Mar. 29, 2021, 11:15 PM), https://www.facebook.com/
markleedickson/posts/10159115346774866 (“[B]ecause of [SB 8] you will be able to bring many
lawsuits later this year against any abortionists who are in violation of this bill. Let me know if
you are looking for an attorney to represent you if you choose to do so. Will be glad to recommend
some.”); Mark Lee Dickson, Facebook (June 1, 2:07 PM), https://www.facebook.com/
markleedickson/videos/10159259661094866 (posting a video of himself and another individual
calling Planned Parenthood’s Lubbock health center to test whether the center would schedule an
abortion despite the City ban).
16

SuppApp.16

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 17 of 49

Section 7 of S.B. 8, will be codified in that chapter. TMB may impose discipline on a doctor who
violates any state law “connected with the physician’s practice of medicine” because such violation
constitutes per se “unprofessional or dishonorable conduct.” Tex. Occ. Code § 164.053(a)(1); id.
§ 164.052(a)(5); see also § 164.053(b) (making clear that “[p]roof of the commission of the act
while in the practice of medicine . . . is sufficient” for discipline). TMB must also investigate and
review the “medical competency” of licensees who have been named in three or more health-carerelated lawsuits within a five-year period. 22 Tex. Admin. Code § 176.8. Mr. Carlton has been
named by Plaintiffs as a defendant in previous litigation challenging abortion restrictions or
regulations and will likely continue to be named in such suits given the nature of his duties. S.B.
8, therefore, authorizes him to seek attorney’s fees and costs from Plaintiffs for any covered claim
they bring in this litigation and in other suits, if judgment on any claim is entered in his favor or
dismissed, regardless of reason. S.B. 8 § 4 (to be codified at Tex. Civ. Prac. & Rem. Code § 30.022)
(hereinafter S.B. 8 § 4 citations are to the newly created sections of Tex. Civ. Prac. & Rem. Code
only). Mr. Carlton is sued in his official capacity and may be served with process at 333 Guadalupe,
Tower 3, Suite 610, Austin, TX 78701.
52.

Defendant Katherine A. Thomas is the Executive Director of the Texas Board of

Nursing (“TBN”). Ms. Thomas performs duties as required by the Nursing Practice Act and as
designated by the board. Tex. Occ. Code § 301.101. TBN is authorized to take disciplinary,
administrative, and civil action against licensed nurses who violate the Nursing Practice Act or its
rules. Id. §§ 301.452(b)(1), 301.501, 301.553. Under TBN’s rules, a nurse must “conform to . . .
all federal, state, or local laws, rules or regulations affecting the nurse’s current area of nursing
practice.” 22 Tex. Admin. Code § 217.11(1)(A). A nurse’s “repeated[] fail[ure] . . . to perform”
nursing duties “in conformity with th[is] standard[]” constitutes a per se “[u]nsafe [p]ractice” for

17

SuppApp.17

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 18 of 49

which discipline may be imposed. Id. § 217.12(1)(A). Ms. Thomas has been named by Plaintiffs
as a defendant in previous litigation challenging abortion restrictions or regulations and will likely
continue to be named in such suits given the nature of her duties. S.B. 8 thus authorizes her to seek
attorney’s fees and costs from Plaintiffs for any covered claim they bring in this litigation and in
other suits, if judgment is entered on any claim in her favor or dismissed, regardless of reason.
S.B. 8 § 30.022. Ms. Thomas is sued in her official capacity and may be served with process at
333 Guadalupe, Suite 3-460, Austin, TX 78701-3944.
53.

Defendant Cecile Erwin Young is the Executive Commissioner of the Texas Health

and Human Services Commission (“HHSC”). HHSC licenses and regulates abortion facilities and
ambulatory surgical centers (“ASCs”) operated by Plaintiffs. Tex. Health & Safety Code
§§ 243.011, 245.012. HHSC is also charged with enforcing Chapter 171 of the Texas Health and
Safety Code, id. § 171.005, including amendments made by § 7 of S.B. 8. Its regulations further
provide that it may take disciplinary or civil action against any licensed facility that violates
Chapter 171, where S.B. 8 § 3 and § 7 will be codified, or that fails to ensure physicians working
in the facility comply with the Medical Practice Act. See 25 Tex. Admin. Code § 139.60(c), (l);
Tex. Health & Safety Code §§ 243.014-.015, 245.015, 245.017; see also 25 Tex. Admin. Code
§ 135.4(l) (requiring abortion-providing ASCs to comply with rules for abortion facilities). HHSC
may deny, suspend, or revoke a license and assess civil and administrative financial penalties
against a licensed abortion facility or ASC for violating its rules. Tex. Health & Safety Code
§§ 243.014-.015, 245.015, 245.017. Ms. Young’s predecessor overseeing abortion facilities and
ASCs has been named by Plaintiffs as a defendant in previous litigation challenging abortion
restrictions or regulations, and Ms. Young will likely continue to be named in such suits given the
nature of her duties. S.B. 8 authorizes her to seek attorney’s fees and costs from Plaintiffs for any

18

SuppApp.18

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 19 of 49

covered claim they bring in this litigation and in other suits, if judgment is entered on any claim in
her favor or dismissed, regardless of reason. S.B. 8 § 30.022. She is sued in her official capacity
and may be served with process at 4900 N. Lamar Blvd., Austin, TX 78751.
54.

Defendant Allison Vordenbaumen Benz is the Executive Director of the Texas

Board of Pharmacy (“TBP”). As Executive Director, Ms. Benz performs duties as required by the
Texas Pharmacy Act or designated by the board. Tex. Occ. Code § 553.003. TBP is authorized to
take disciplinary, administrative, and civil action against licensed pharmacists and pharmacies who
have violated the Texas Pharmacy Act or its rules, including for “unprofessional” conduct or
“gross immorality.” Id. §§ 565.001(a), 565.002. TBP defines “unprofessional conduct” to include
“engaging in behavior or committing an act that fails to conform with the standards of the
pharmacy profession, including, but not limited to, criminal activity.” 22 Tex. Admin. Code
§ 281.7(a). “[G]ross immorality” includes broadly defined types of misconduct that are “willful”
and “flagrant.” Id. § 287.1(b). The Board of Pharmacy may assess a civil or administrative
financial penalty for any violation of the Pharmacy Act or its rules. Tex. Occ. Code §§ 566.001.002, 566.101. S.B. 8 authorizes Ms. Benz to seek attorney’s fees and costs from Plaintiffs for any
covered claim they bring in this litigation if judgment is entered in her favor or dismissed,
regardless of reason. S.B. 8 § 30.022. She is sued in her official capacity and may be served with
process at 333 Guadalupe, Suite 500, Austin, TX 78701-3944.
55.

Defendant Ken Paxton is the Attorney General of Texas. He is empowered to

institute an action for a civil penalty against physicians and physician assistants licensed in Texas
who are in violation of or threatening to violate any provision of the Medical Practice Act,
including provisions triggered by a violation of S.B. 8. Tex. Occ. Code § 165.101. Mr. Paxton has
been named by Plaintiffs as a defendant in previous litigation challenging abortion restrictions or

19

SuppApp.19

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 20 of 49

regulations and will likely continue to be named in such suits given the nature of his duties. S.B. 8
authorizes him to seek attorney’s fees and costs from Plaintiffs for any covered claim they bring
in this litigation and in other suits, if judgment is entered on any claim in his favor or dismissed,
regardless of reason. S.B. 8 § 30.022. He is sued in his official capacity and may be served with
process at 300 West 15th Street, Austin, Texas 78701.5
56.

Defendants Carlton, Thomas, Young, Benz, and Paxton are hereinafter referred to

collectively as “the Government Official Defendants.”
FACTUAL ALLEGATIONS
I.

ABORTION IN THE UNITED STATES
57.

Legal abortion is one of the safest medical procedures in the United States. A

woman’s risk of death associated with carrying a pregnancy to term is approximately 14 times
higher than that associated with abortion, and every pregnancy-related complication is more
common among women giving birth than among those having abortions.6
58.

Abortion is also very common: approximately one in four women in the United

States has an abortion by age forty-five.

5

Defendant Paxton is a proper defendant under Section 1983 and Ex Parte Young, 209
U.S. 123 (1908), based on his authority to enforce collateral statutes in response to S.B. 8
violations and to seek costs and fees under S.B. 8 Section 4. Plaintiffs further allege that they
would have standing to sue Defendant Paxton and that he would be a proper defendant even in the
absence of that collateral enforcement authority and Section 4’s fee-shifting provision. Plaintiffs
recognize that this standing theory is currently foreclosed by the Fifth Circuit’s decision in
Okpalobi v. Foster, 244 F.3d 405 (5th Cir. 2001) (en banc), but assert it here to preserve it for any
appeal.
6

References to “woman” or “women” are meant as shorthand for people who are or may
become pregnant. However, people with other gender identities, including transgender men and
gender-diverse individuals, may also become pregnant and seek abortion services. Accord Reprod.
Health Servs. v. Strange, No. 17-13561, 2021 WL 2678574, at *1 n.2 (11th Cir. June 30, 2021)
(“Although this opinion uses gendered terms, we recognize that not all persons who may become
pregnant identify as female.”)
20

SuppApp.20

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 21 of 49

59.

Those seeking an abortion do so for a variety of deeply personal reasons, including

familial, medical, and financial ones. Deciding whether to keep or end a pregnancy implicates a
person’s core religious beliefs, values, and family circumstances. Some people have abortions
because it is not the right time to have a child or to add to their families—a majority of abortion
patients already have at least one child. Some want to pursue their education; some lack the
economic resources or level of partner support or stability needed to raise children; some will be
unable to care adequately for their existing children or their ill or aging parents if they increase
their family size. Others end a pregnancy to be able to leave an abusive partner. Some people seek
abortions to preserve their life or health or because of a diagnosed fetal medical condition; some
because they have become pregnant as a result of rape or incest; and others because they decide
not to have children at all. Some families feel they do not have the societal or personal resources—
financial, medical, educational, or emotional—to care for a child with physical or intellectual
disabilities, or to do so and simultaneously provide for their existing children.
II.

STATUTORY FRAMEWORK OF S.B. 8
A.

S.B. 8, Section 3: The Six-Week Ban and Enforcement Actions
(i)

60.

The prohibition on performing abortions

Section 3 of S.B. 8 requires physicians who perform abortions in Texas to first

determine whether “a detectable fetal heartbeat” is present. S.B. 8 § 3 (to be codified at Tex. Health
& Safety Code § 171.203(b)); see id. (to be codified at Tex. Health & Safety Code § 171.201(1))
(hereinafter S.B. 8 § 3 citations are to newly created sections of Tex. Health & Safety Code only).
The Act prohibits the physician from providing an abortion after “detect[ing] a fetal heartbeat” or
if the physician “failed to perform a test to detect a fetal heartbeat.” Id. § 171.204(a). S.B. 8
contains no exception for pregnancies that result from rape or incest, or for fetal health conditions
that are incompatible with sustained life after birth. The only exception is for a medical emergency.
21

SuppApp.21

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 22 of 49

Id. §§ 171.204(a), 171.205(a). Sections 7 and 9 of S.B. 8 impose additional reporting requirements
on abortions performed because of a medical emergency. S.B. 8 § 7 (to be codified at Tex. Health
& Safety Code § 171.008); S.B. 8 § 9 (to be codified at Tex. Health & Safety Code § 245.011(c)).
61.

S.B. 8 defines “fetal heartbeat” as “cardiac activity or the steady and repetitive

rhythmic contraction of the fetal heart within the gestational sac.” S.B. 8 § 171.201(1). In a
typically developing pregnancy, ultrasound can generally detect cardiac activity beginning at
approximately six weeks of pregnancy, as measured from the first day of a patient’s last menstrual
period (“LMP”).
62.

S.B. 8 thus prohibits virtually all abortions after approximately six weeks LMP—

before many patients even know they are pregnant. Indeed, for patients with regular menstrual
periods, six weeks of pregnancy is only two weeks after the patient’s first missed period.
63.

A full-term pregnancy is approximately 40 weeks LMP.

64.

The cells that produce early cardiac activity described in S.B. 8 have not yet formed

a “heart.” The term “heartbeat” in S.B. 8 thus covers not just a “heartbeat” in the lay sense, but
also early cardiac activity—more accurately, electrical impulses—present before full development
of the cardiovascular system. Similarly, a developing pregnancy is properly referred to as an
“embryo” until approximately ten weeks LMP, when it becomes a “fetus.” So, despite S.B. 8’s use
of the phrase “fetal heartbeat,” the Act forbids abortion even when cardiac activity is detected in
an embryo. See id. §§ 171.201(1), 171.201(7), 171.204(a) (emphasis added). Because neither
“fetal” nor “heartbeat” is accurate medical terminology at this stage of pregnancy, Plaintiffs refer
to the prohibition against providing an abortion after the detection of a “fetal heartbeat” as a “sixweek ban.”

22

SuppApp.22

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 23 of 49

65.

No embryo is viable at six weeks LMP, or at any other point when cardiac activity

can first be detected by ultrasound. Instead, viability is generally understood as the point in
pregnancy when a fetus, if born at that time, has a reasonable likelihood of sustained life after
birth, with or without artificial support.
66.

Viability generally does not occur until approximately 24 weeks LMP. By

prohibiting abortion after approximately 6 weeks LMP, S.B. 8 bans abortion roughly four months
before viability.
67.

Although patients generally obtain an abortion as soon as they can, the

overwhelming majority of abortions in Texas occur after six weeks of pregnancy. Many patients
do not even realize they are pregnant before six weeks LMP—for instance, because they have
irregular menstrual periods, or because they mistake the vaginal bleeding that is common in early
pregnancy for a period.
68.

Even those patients who do confirm a pregnancy before 6 weeks LMP and decide

quickly that they want an abortion often encounter substantial barriers to obtaining one. They must
navigate Texas’s onerous legal scheme for abortion, which requires, inter alia, that all patients
living within 100 miles of an abortion clinic travel to the clinic and obtain an ultrasound at least
24 hours before the abortion, Tex. Health & Safety Code §§ 171.011-.016, and that patients under
eighteen obtain written parental authorization or a court order before obtaining care, Tex. Fam.
Code §§ 33.001-.014.
69.

Access to care in Texas has been decimated by years of unnecessary and

burdensome restrictions. See, e.g., Whole Woman’s Health v. Hellerstedt, 136 S. Ct. 2292, 2313
(2016) (unconstitutional abortion restriction “led to the closure of half of Texas’ clinics, or
thereabouts”).

23

SuppApp.23

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 24 of 49

70.

Financial and logistical difficulties also prevent many patients from obtaining an

abortion before six weeks LMP. Nationwide, three out of four abortion patients are poor or have
low incomes. Such patients are often delayed in accessing abortions as they struggle to raise funds
to cover the cost of the abortion, childcare (for the majority of abortion patients who already have
at least one child), transportation to and from the clinic, any needed hotel rooms for patients forced
to travel long distances to the nearest provider, and lost wages for missed work.
71.

With very narrow exceptions, Texas bars coverage of abortion through its Medicaid

program, 1 Tex. Admin. Code § 354.1167, health plans offered in the state health-insurance
exchange, Tex. Ins. Code § 1696.002, and private insurance plans, id. § 1218.001-.006,
compounding the financial hurdles patients face in attempting to access abortion services.
72.

Additionally, patients whose pregnancies are the result of sexual assault or who

are experiencing intimate partner violence may be delayed because of ongoing physical or
emotional trauma, or because of the need to keep their pregnancy and abortion decision private
from an abusive partner.
(ii)

73.

Liability for providing prohibited abortions, aiding and abetting
prohibited abortions, or intending to provide or aid and abet such
abortions

S.B. 8 creates liability for “perform[ing] or induc[ing] an abortion in violation of”

the six-week ban. S.B. 8 § 171.208(a)(1).
74.

S.B. 8 also creates liability for “knowingly engag[ing] in conduct that aids or abets

the performance or inducement of” an abortion that violates the six-week ban. Id. § 171.208(a)(2).
Although S.B. 8 does not define what constitutes aiding or abetting, it expressly provides that
“paying for or reimbursing the costs of an abortion” is prohibited activity. Id. S.B. 8’s aiding-andabetting liability would apply “regardless of whether the person knew or should have known that
the abortion would be performed or induced in violation of” S.B. 8. Id.
24

SuppApp.24

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 25 of 49

75.

Even if someone does not actually perform a prohibited abortion or aid a prohibited

abortion, the Act provides that they can still be sued if they merely intend to do so. Id.
§ 171.208(a)(3).
(iii)
76.

Enforcement actions and penalties for non-compliance

S.B. 8 expressly precludes the state or any political subdivision, as well as

executive-branch officials and district and county attorneys, from directly enforcing the six-week
ban. Id. § 171.207(a). Instead, S.B. 8 creates a private, civil enforcement action: “Any person,
other than an officer or employee of a state or local governmental entity in this state, may bring a
civil action against any person” who performs a prohibited abortion, aids or abets a prohibited
abortion, or intends to engage in these activities. Id. § 171.208(a).
77.

Besides government officials, the only people not permitted to initiate an S.B. 8

enforcement action are those “who impregnated the abortion patient through an act of rape, sexual
assault, incest,” or certain other crimes. Id. § 171.208(j). However, because the six-week ban itself
contains no exception for pregnancies resulting from rape, sexual assault, or incest, anyone other
than the perpetrator could still sue a clinic, physician, friend, or family member who assists a
patient in terminating a pregnancy that resulted from the offense.
78.

S.B. 8 does not permit suits against abortion patients. Id. § 171.206(b)(1). But it

provides a ready tool for abusive and manipulative partners or family members to try to block a
patient’s abortion decision. Under S.B. 8, if such individuals know about a patient’s plan to obtain
an abortion, they could sue the patient’s abortion provider, or anyone else who “intends” to assist
with that abortion, to try to prevent the patient from accessing care. Id. § 171.208(a)(3).
79.

S.B. 8 imposes draconian penalties. Where an S.B. 8 claimant prevails, “the court

shall award”: (1) “injunctive relief sufficient to prevent” future violations or conduct that aids or

25

SuppApp.25

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 26 of 49

abets violations; (2) “statutory damages” to the claimant “in an amount of not less than $10,000
for each abortion” that was provided or aided and abetted; and (3) the claimant’s “costs and
attorney’s fees.” Id. § 171.208(b). S.B. 8 does not expressly require the claimant to allege or prove
any injury to obtain an award.
(iv)
80.

The rigged nature of the enforcement proceedings

At every turn, S.B. 8’s rules for the enforcement proceedings sharply diverge from

those normally applicable to Texas litigants and make it impossible for those sued to fairly defend
themselves. The proceedings conscript the state courts into enforcing this unconstitutional law
while imposing maximum burdens on abortion providers and other people who are sued.
81.

Statewide venue: S.B. 8 allows “any person”—including those with no connection

to the abortion or the patient, and those who may be motivated by hostility to abortion rights or
desire for financial gain—to file lawsuits in their home counties and then veto transfer to a more
appropriate venue. As a result, abortion providers and alleged aiders and abettors could be forced
to defend themselves in multiple, simultaneous enforcement proceedings in courts across the state.
See id. § 171.210(a)(4) (permitting suit in the claimant’s county of residence if “the claimant is a
natural person residing in” Texas); id. § 171.210(b) (providing that S.B. 8 “action may not be
transferred to a different venue without the written consent of all parties”). In contrast, venue in
Texas is generally limited to where the events giving rise to a claim took place or where the
defendant resides, see Tex. Civ. Prac. & Rem. Code § 15.002(a), and a Texas state court may
generally transfer venue “[f]or the convenience of the parties and witnesses and in the interest of
justice,” id. § 15.002(b).
82.

One-way fee-shifting in favor of S.B. 8 claimants: S.B. 8 provides that in

enforcement proceedings, anyone who brings an S.B. 8 claim and prevails is entitled to recover

26

SuppApp.26

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 27 of 49

costs and attorney’s fees. S.B. 8 § 171.208(b)(3). Meanwhile, abortion providers and other people
sued under S.B. 8 cannot be awarded costs or attorney’s fees if they prevail, no matter how many
times they are sued or the number of courts in which they must defend, and irrespective of the fact
that every S.B. 8 claim is barred by binding federal law. Id. § 171.208(i).
83.

Elimination of defenses: S.B. 8 purports to bar people who are sued from raising

seven defenses under the Act, including that they believed the law was unconstitutional; that they
relied on a court decision, later overruled, that was in place at the time of the acts underlying the
suit; or that the patient consented to the abortion. Id. § 171.208(e)(2), (3). S.B. 8 also states that
people who are sued may not rely on non-mutual issue or claim preclusion, or rely as a defense on
any other “state or federal court decision that is not binding on the court in which the action” was
brought. Id. § 171.208(e)(4), (5). The clear import of these provisions is to cast a pall on
constitutionally protected activity, to force abortion providers and others who assist them to defend
themselves over and over again, and to hamstring that defense.
84.

Redefinition of federal abortion law: S.B. 8 also purports to override binding

federal law when applied in state-court enforcement proceedings. Under an “unbroken line” of
Supreme Court cases, “[s]tates may regulate abortion procedures prior to viability so long as they
do not impose an undue burden” on a patient’s right to abortion, but states “may not ban abortions.”
Jackson Women’s Health Org. v. Dobbs (“Jackson Women’s I”), 945 F.3d 265, 269 (5th Cir. 2019),
cert. granted, No. 19-1392, 2021 WL 1951792 (U.S. May 17, 2021). The U.S. Supreme Court has
articulated an undue-burden balancing standard that applies to assess the constitutionality of
abortion regulations. Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833, 877–78 (1992). But
as every court to consider a similar ban, including the Fifth Circuit, has concluded, a ban at six
weeks can never survive constitutional review. Jackson Women’s Health Org. v. Dobbs (“Jackson

27

SuppApp.27

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 28 of 49

Women’s II”), 951 F.3d 246, 248 (5th Cir. 2020) (striking six-week ban because “cardiac activity
can be detected well before the fetus is viable [and] [t]hat dooms the law”). Despite this federal
framework and Fifth Circuit precedent, S.B. 8 would require state courts to weigh the undue burden
anew in every case as part of an “affirmative defense” in enforcement actions, and even then would
fundamentally “limit[]” that test. S.B. 8 § 171.209(c), (d). As one example, under S.B. 8’s distorted
version of the undue burden “defense,” an abortion provider could not rely on the Act’s practical
effect on abortion access across the state, id. § 171.209(d)(2)), even though federal courts
adjudicating undue-burden claims regularly do so, see, e.g., Whole Woman’s Health, 136 S. Ct. at
2312–13. Further, Section 5 of S.B. 8 attempts to create new rules of construction and severability,
only as they apply to state abortion laws and regulations. S.B. 8 § 5 (to be codified at Tex. Gov.
Code § 311.036).
85.

Moreover, S.B. 8 directs state-court judges to ignore judgments and injunctions

issued by federal courts, for example, by telling state courts to refuse to apply non-mutual collateral
estoppel based on such judgments, and by mandating that they ignore whether a federal injunction
expressly permitted activity by an abortion provider or other person sued in S.B. 8 proceedings.
S.B. 8 § 171.208(e)(4), (5).
B.

S.B. 8, Section 4: The Fee-Shifting Provision to Deter All Challenges to Texas
Abortion Restrictions

86.

Section 4 of S.B. 8 creates an unprecedented and draconian one-way fee-shifting

provision designed to deter any legal challenges to Texas abortion restrictions and to penalize
anyone who tries to bring such a challenge. This provision applies to any person—including a
party’s lawyers—who seeks injunctive or declaratory relief to prevent enforcement of S.B. 8.
S.B. 8 § 30.022. And it goes beyond S.B. 8, reaching any challenge to a “law that regulates or

28

SuppApp.28

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 29 of 49

restricts abortion,” or that excludes those who “perform or promote” abortion from participating
in a public funding program. Id.
87.

This fee provision purports to apply in state and federal court, and to any state or

federal claim, including Section 1983 claims brought to vindicate federal constitutional rights.
88.

Under this provision, civil-rights plaintiffs and their attorneys can be forced to pay

defendants’ attorney’s fees unless they run the table in litigation, prevailing on every claim they
brought. If a court dismisses a claim brought by the civil-rights plaintiff, regardless of the reason,
or enters judgment in the other party’s favor on that claim, the party defending the abortion
restriction is deemed to have “prevail[ed].” S.B. 8 § 30.022(b). That is presumably true even if the
court ultimately enjoins the challenged abortion restriction in full after, for example, rejecting one
claim pleaded in the alternative or dismissing another rendered moot by circumstance.
89.

According to Section 4 of S.B. 8, the party seeking fees need not even have asked

for them in the underlying litigation. Rather, that party can file a new lawsuit against the abortionrights advocate or their attorneys and law firms any time within three years of the claim resolution,
thus choosing a different venue to litigate the fee claims before a judge who did not preside over
the initial case. Id. § 30.022(c), (d)(1).
90.

S.B. 8 then directs state courts resolving this new species of fee claims to start from

scratch. According to S.B. 8, they cannot even consider whether the court in the underlying case
already denied fees to the party defending the abortion restriction, or already considered the
application of S.B. 8 Section 4 and held it “invalid, unconstitutional, or preempted by federal law.”
Id. § 30.022(d)(3). Nor does S.B. 8 explicitly limit fees to what is reasonable, unlike other feeshifting statutes such as 42 U.S.C. § 1988.

29

SuppApp.29

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 30 of 49

III.

IRREPARABLE HARM CAUSED BY S.B. 8
A.

Impact on Abortion Patients

91.

If S.B. 8 is permitted to take effect, many Texans will be forced to carry their

pregnancies to term, to attempt to scrape together funds to obtain an abortion out of state, or
possibly to attempt to self-manage their own abortions without access to accurate medical
information. Currently, approximately 85-90% of people who obtain abortions in Texas are at least
six weeks into pregnancy. Regardless of outcome, S.B. 8 will impose severe and irreparable harm
on patients.7
92.

Being forced to continue a pregnancy against one’s will jeopardizes a person’s

physical, mental, and emotional health, as well as the stability and well-being of their family,
including existing children.
93.

Even for someone who is otherwise healthy and has an uncomplicated pregnancy,

being forced to carry that pregnancy to term and give birth poses serious medical risks with both
short- and long-term consequences for the patient’s physical health and mental and emotional wellbeing. For someone with a medical condition caused or exacerbated by pregnancy, these risks are
increased.
94.

For people experiencing intimate partner violence, forced pregnancy also often

exacerbates the risk of violence and further tethers the pregnant person to their abuser.
95.

In addition, forced pregnancy will add to the anguish of patients and their families

who receive fetal diagnoses that are incompatible with sustained life after birth—forcing patients

7

See Kari White, et al., Research Brief: Texas Senate Bill 8: Medical and Legal
Implications, Tex. Policy Evaluation Project (July 2021), available at http://sites.utexas.edu/txpep/
files/2021/07/TxPEP-research-brief-SB8.pdf.
30

SuppApp.30

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 31 of 49

to carry doomed pregnancies for months and suffer the physical and emotional pains of labor and
delivery, knowing all the while that their child will not survive.
96.

S.B. 8 will be particularly devastating for Texans of color, particularly Black and

Latinx populations, as well as for Texans with low incomes and those living in rural areas—
communities that already face heightened barriers to medical care.
97.

Low-income and Black and Latinx populations seek abortions at a higher rate than

wealthier and white populations (both in Texas and nationally) due to inadequate access to
contraceptive care, income inequity, and other facets of structural racism. These communities will
thus necessarily bear an outsized share of S.B. 8’s burdens.
98.

Black Texans will also disproportionately suffer the gravest consequences of forced

pregnancy if S.B. 8 is allowed to take effect in light of the significantly higher rates of maternal
mortality in their communities.
99.

Those who attempt to travel out of state to access care will have to pay for and

arrange transportation, childcare, and time off work. Because the majority of abortion patients are
poor or have low incomes, these financial and other costs may be insurmountable or require them
to forgo other basic needs for themselves and their existing families.
100.

Even those able to amass funds and make arrangements to travel outside Texas for

care will be delayed in obtaining an abortion. While abortion is very safe at all stages, the risks
increase as pregnancy advances. Moreover, the cost of an abortion generally increases with
gestational age.
101.

Additionally, by targeting individuals who provide financial, practical, or

emotional support for abortion access, S.B. 8 will decimate the support system on which Texans
with low incomes rely to access abortion. Indeed, by imposing aiding-and-abetting liability

31

SuppApp.31

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 32 of 49

“regardless of whether the person knew or should have known that the abortion would be
performed or induced in violation” of S.B. 8, id. § 171.208(a)(2), it will chill support even for
those few early abortions that remain permissible under S.B. 8.
B.

Impact on Provider Plaintiffs and Their Physicians and Staff

102.

S.B. 8 subjects the Provider Plaintiffs and their staff to a Hobson’s choice. If they

stop providing abortions and engaging in other activities that assist with abortion provision after
six weeks of pregnancy as S.B. 8 requires, they will be forced to turn away patients in need of
constitutionally protected care, and many will lose or lay off staff in light of the reduced services.
Many will soon have to shutter their doors permanently because they cannot sustain operations if
barred from providing the bulk of their current care. And as Texas’s previous attempts at restricting
abortion have demonstrated, abortion providers forced to close their doors may not ever reopen,
even if a court later intervenes.
103.

If these abortion providers instead offer abortion in violation of S.B. 8, they reach

the same outcome with even longer-term consequences. They and their staff could be forced to
defend dozens if not hundreds of simultaneous S.B. 8 lawsuits scattered across the state. And if
that campaign of harassment does not alone bankrupt the abortion providers, they will quickly
accrue catastrophic financial liability under S.B. 8’s monetary penalty of at least $10,000 per
abortion. Moreover, a steady stream of random strangers could seek injunctive relief preventing
the abortion providers from performing prohibited abortions going forward—and do so in any of
hundreds of state courts of their choosing.
104.

There is no question that vigilante enforcement lawsuits under S.B. 8 will be filed

if the Provider Plaintiffs continue performing abortions. Anti-abortion protestors in Texas
frequently track clinic operations and staff, including by, for example, video recording staff as they

32

SuppApp.32

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 33 of 49

enter and exit health centers. Individuals opposed to abortion also regularly file false complaints
with licensing agencies to trigger government investigations.
105.

Moreover, months before S.B. 8 was even scheduled to take effect, two individuals

trespassed onto Whole Woman’s Health Alliance’s private property to distribute a letter informing
staff that they can be sued for providing or facilitating abortions after the detection of a “fetal
heartbeat” and encouraging staff to report their colleagues to the letter’s authors.
106.

Similarly, Defendant Mark Lee Dickson has openly called for people to sue their

local abortion providers under S.B. 8, has offered to connect interested claimants with attorneys,
has threatened to sue PPGT Surgical Health Services under a functionally identical Lubbock
ordinance, and has taken deceptive steps to test PPGT Surgical Health Services’ compliance with
that ordinance. See supra ¶ 50 n.4. Due to these threats and others, PPGT Surgical Health Services
has already been forced to stop providing abortions in Lubbock, while it challenges the Lubbock
ordinance in another federal lawsuit. With the Lubbock clinic not currently providing abortion, the
next nearest abortion provider is three hundred miles away.
107.

In addition to the costs of defending S.B. 8 lawsuits and the risk of mandatory

statutory damages and injunctions, the Provider Plaintiffs and staff risk professional discipline and
other liability for violations of the Act. While the Government Official Defendants lack authority
to directly enforce S.B. 8, they retain the authority and duty to enforce other statutes and
regulations against licensed abortion facilities, ambulatory surgical centers, pharmacies,
physicians, physician assistants, nurses, and pharmacists that could be triggered by a violation of
S.B. 8. See supra ¶¶ 51-55.
108.

In addition to these harms, S.B. 8 Section 4’s fee-shifting provision to penalize and

deter challenges to all abortion laws, not just S.B. 8, will burden the Provider Plaintiffs’ right to

33

SuppApp.33

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 34 of 49

petition the courts and to speak freely, exposing them to potentially ruinous liability for attorney’s
fees and costs because they attempt to vindicate their own and others’ constitutional rights through
public-interest litigation.
109.

In sum, because of S.B. 8, the Provider Plaintiffs and their staff will suffer profound

harm to their property, business, reputations, and a deprivation of their own constitutional rights.
C.

Impact on Advocate Plaintiffs

110.

If S.B. 8 forces the Provider Plaintiffs and their staff to stop providing abortion care

after six weeks of pregnancy, most Texans will need to leave the state to obtain an abortion. This
will require the Advocate Plaintiffs to redirect their limited resources to out-of-state travel, even
though it inflicts heavy—sometimes insurmountable—burdens on their clients, who experience
intersecting forms of oppression. In these ways, S.B. 8 will subvert the Advocate Plaintiffs’ aim
to help ensure that every person can exercise reproductive autonomy regardless of circumstance.
111.

If the Advocate Plaintiffs continue to support those obtaining abortions in Texas,

they are likely to face vigilante enforcement lawsuits for aiding and abetting abortions prohibited
by S.B. 8 and risk mandatory statutory damages and injunctions. Defendant Dickson and other
entities opposed to abortion access have already targeted some of the Advocate Plaintiffs for their
efforts to ensure especially vulnerable Texans can terminate a pregnancy. Dickson, for example,
drafted an ordinance adopted by seven towns in Texas branding Plaintiffs The Afiya Center, Lilith
Fund, and TEA Fund as “criminal organizations,” and has publicly referred to the “Lilith Fund and
other abortion-aiding organizations” as “tak[ing] part in the murder of innocent unborn human
beings.”
112.

Other Advocate Plaintiffs face the threat of vigilante enforcement lawsuits with

unknown liability under S.B. 8 for simply engaging in First Amendment-protected speech and

34

SuppApp.34

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 35 of 49

other activity in support of abortion. Rev. Forbes and Rev. Kanter risk costly and burdensome civil
lawsuits for providing spiritual and emotional counseling to patients and parishioners, as they are
called by their own religious beliefs to provide. This risk extends to other clergy members,
counselors, and advisors (such as sexual assault and genetic counselors), as S.B. 8 incentivizes
lawsuits accusing individuals of aiding and abetting prohibited abortions.
113.

Defending against S.B. 8 suits will drain the Advocate Plaintiffs’ resources and

prevent them from operating, regardless of whether the suits are ultimately dismissed.
CLASS ALLEGATIONS
114.

This lawsuit is properly maintained as an action against two defendant classes under

Federal Rule of Civil Procedure 23(b)(1)(A) or alternatively under Rule 23(b)(2).
A.

Judicial Defendant Class

115.

The first class consists of all non-federal judges in the State of Texas with

jurisdiction over civil actions and the authority to enforce S.B. 8 (“Judicial Defendant Class”).
116.

Any separate actions commenced against individual judges for the purpose of

challenging their enforcement of S.B. 8 may result in inconsistent decisions by the courts presiding
over those actions.
117.

Separate actions could put Plaintiffs in the untenable position of not knowing which

of multiple, incompatible interpretations and rulings they must comply with to avoid violating the
law and risking severe statutory damages.
118.

There are potentially more than 1,000 non-federal judges in the State of Texas with

jurisdiction over civil suits brought under S.B. 8 where the amount in controversy exceeds TwoHundred Dollars ($200.00). Additionally, members of the proposed Judicial Defendant Class are
located in each of Texas’s 254 counties. Given the size of the class and this geographic dispersal,

35

SuppApp.35

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 36 of 49

it is impracticable to join all judges with power to enforce S.B. 8 in order to provide protection to
all potential defendants in those actions.
119.

Resolution of any one of the legal issues raised in this case will affect similarly

each member of the proposed Judicial Defendant Class, by determining whether, and to what
extent, they may enforce S.B. 8 under the U.S. Constitution and federal law. Moreover, the relief
sought in this case does not turn on circumstances specific to particular members of the proposed
defendant class. Accordingly, there are questions of law common to the class.
120.

Defendant Judge Jackson is an adequate class representative because his court has

jurisdiction over civil claims with an amount in controversy greater than $200.00. See Tex. Const.
art. V, §§ 1, 8. S.B. 8 civil enforcement actions may be brought in the 114th District Court where
Judge Jackson presides. Judge Jackson is directed to enforce compliance with the Act by
implementing the remedies mandated by S.B. 8. In this action, Plaintiffs seek a declaratory
judgment that S.B. 8 is invalid and cannot be enforced by any Defendant, including, inter alia, the
Class Representative. Accordingly, the Class Representative is qualified as a member of the
defined class.
121.

The defenses which the Class Representative will raise will be typical of all

members of the proposed Judicial Defendant Class. The claims against which the Class
Representative must defend challenge the constitutionality of the Act and are asserted against all
members of the proposed Judicial Defendant Class. Further, the Class Representative and the other
class members hold a common position with respect to Plaintiffs, a position that is defined by
statutory obligations and not by personal relationships. Therefore, any defenses the Class
Representative asserts—and the legal theories on which they are based—will be available to the
other class members.

36

SuppApp.36

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 37 of 49

122.

The Class Representative’s position is aligned with that of the other class members

because all are charged with enforcing S.B. 8. For purposes of this suit, the Class Representative
has no interests antagonistic to or in conflict with the interests of other members of the proposed
class. Because the functions of all judges with respect to this statute are substantially the same, the
Class Representative will be able to fairly and adequately represent the interests of all judges with
authority to hear civil suits under S.B. 8.
B.

Clerk Defendant Class

123.

The second class consists of the clerks in all non-federal courts in the State of Texas

with jurisdiction over civil actions and the authority to enforce S.B. 8 (“Clerk Defendant Class”).
124.

Any separate actions commenced against individual clerks for the purpose of

challenging their role in enforcing S.B. 8 may result in inconsistent decisions by the courts
presiding over those actions.
125.

Separate actions could put Plaintiffs in the untenable position of not knowing which

of multiple, incompatible interpretations and rulings they must comply with to avoid violating the
law and risking severe statutory damages.
126.

There are likely more than 500 clerks of the non-federal courts in the State of Texas

with jurisdiction over civil suits brought under S.B. 8. Additionally, members of the proposed
Clerk Defendant Class are located throughout the state. Given the size of the class and this
geographic dispersal, it is impracticable to join all clerks for the courts with power to enforce
S.B. 8 in order to provide protection to all potential defendants in those actions.
127.

Resolution of any one of the legal issues raised in this case will affect similarly

each member of the proposed Clerk Defendant Class, by determining whether, and to what extent,
they may accept filing of and issue citations for service of process in S.B. 8 civil actions under the

37

SuppApp.37

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 38 of 49

U.S. Constitution and federal law. Moreover, the relief sought in this case does not turn on
circumstances specific to particular members of the proposed Clerk Defendant Class.
Accordingly, there are questions of law common to the class.
128.

Defendant Penny Clarkston is an adequate class representative because she is the

Clerk for the District Court of Smith County, which has jurisdiction over civil claims with an
amount in controversy greater than $200.00. See Tex. Const. art. V, §§ 1, 8. S.B. 8 civil
enforcement actions may be brought in the District Court of Smith County. Defendant Clarkson is
directed to accept filing of and issue citations for service of process in S.B. 8 civil actions. In this
action, Plaintiffs seek a declaratory judgment that S.B. 8 is invalid and that enforcement actions
cannot be instituted by any Defendant, including, inter alia, the Class Representative, as well as
injunctive relief precluding the members of the Clerk Defendant Class from participating in
S.B. 8’s enforcement. Accordingly, the Class Representative is qualified as a member of the
defined class.
129.

The defenses which the Class Representative will raise will be typical of all

members of the proposed Clerk Defendant Class. The claims against which the Class
Representative must defend challenge the constitutionality of the Act and are asserted against all
members of the proposed Clerk Defendant Class. Further, the Class Representative and the other
class members hold a common position with respect to Plaintiffs, a position that is defined by
statutory obligations and not by personal relationships. Therefore, any defenses the Class
Representative asserts—and the legal theories on which they are based—will be available to the
other class members.
130.

The Class Representative’s position is aligned with that of the other class members

because all are charged with playing a role in the enforcement of S.B. 8. For purposes of this suit,

38

SuppApp.38

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 39 of 49

the Class Representative has no interests antagonistic to or in conflict with the interests of other
members of the proposed class. Because the functions of all clerks with respect to this statute are
substantially the same, the Class Representative will be able to fairly and adequately represent the
interests of all clerks for courts with authority to hear civil suits under S.B. 8.
CLAIMS FOR RELIEF
CLAIM I
(Fourteenth Amendment Substantive Due Process Right to Abortion—Section 3 of S.B. 8)
131.

The allegations in paragraphs 1 through 130 above are incorporated as if fully set

forth herein.
132.

Under Roe v. Wade, 410 U.S. 113 (1973), and nearly fifty years of unbroken

precedent, a patient has a constitutionally protected right to end a pregnancy before viability.
133.

By prohibiting pre-viability abortion upon detection of a “fetal heartbeat” as

defined in the Act, which may occur as early as six weeks LMP (or even sooner), Section 3 of the
Act violates the substantive due process rights of Plaintiffs’ patients to pre-viability abortion, as
guaranteed by the Fourteenth Amendment to the U.S. Constitution.
CLAIM 2
(Fourteenth Amendment Equal Protection—Section 3 of S.B. 8)
134.

The allegations in paragraphs 1 through 133 above are incorporated as if fully set

forth herein.
135.

The Equal Protection Clause commands that no State shall deny to any person

within its jurisdiction the equal protection of the laws, which is essentially a direction that all
persons similarly situated should be treated alike.

39

SuppApp.39

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 40 of 49

136.

Section 3 of S.B. 8 singles out abortion providers and people who “aid or abet” the

constitutionally protected right to abortion, or intend to do these things, and then treats this
category of people differently from all other defendants in civil litigation in Texas.
137.

S.B. 8 alters the procedural rules and limits the substantive defenses and arguments

available in S.B. 8 enforcement proceedings to skew those proceedings and harm those sued under
S.B. 8 in violation of the constitutional guarantee of equal protection. The statute’s venue and feeshifting provisions, its openness to claimants without any connection to an abortion, its
evisceration of defenses and arguments, and its attempt to redefine federal law, all work together
to disadvantage abortion providers and supporters. And they do so toward the goal of enforcing a
patently unconstitutional abortion ban that is unenforceable under binding Supreme Court
precedent.
138.

The purpose for S.B. 8’s enforcement provisions is animus and to burden the

exercise of constitutional rights. Those are not legitimate government interests. Even if Defendants
could assert a compelling government interest, S.B. 8’s enforcement provisions are not narrowly
tailored. Accordingly, S.B. 8’s enforcement scheme cannot survive any level of review, and it
violates Plaintiffs’ equal protection rights.
CLAIM 3
(Fourteenth Amendment, Void for Vagueness—Section 3 of S.B. 8)
139.

The allegations in paragraphs 1 through 138 above are incorporated as if fully set

forth herein.
140.

S.B. 8 imposes quasi-criminal penalties on persons who provide an abortion in

violation of the six-week ban, engage in conduct that aids or abets an abortion that violates the sixweek ban, or intends to do these things.

40

SuppApp.40

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 41 of 49

141.

A law that imposes such penalties is void for vagueness, and thus inconsistent with

the federal guarantee of due process, if it authorizes or encourages arbitrary and discriminatory
enforcement, or fails to provide fair warning of its prohibitions so that ordinary people may
conform their conduct accordingly.
142.

S.B. 8 unlawfully empowers arbitrary and discriminatory enforcement by

deputizing private individuals to enforce state law in violation of clearly established constitutional
rights. Its terms incentivize purely ideological plaintiffs to force their opponents into court to
defend themselves, and to do so without the legal and practical checks that might otherwise temper
government prosecutors or enforcement agencies. S.B. 8 also empowers arbitrary and
discriminatory enforcement because its penalties are standardless.
143.

The Act also fails to adequately inform regulated parties and those charged with the

law’s enforcement of what conduct is prohibited and/or leads to penalties. S.B. 8 states that
abortion providers and others assisting them may be held liable for violating the Act if a court
decision permitting their conduct at the time it occurred is later overruled on appeal or by a
subsequent court. S.B. 8 § 171.208(e)(3). Similarly, under S.B. 8, aiding-and-abetting liability may
attach “regardless of whether [a] person knew or should have known that the abortion” they aided
“would be performed or induced in violation” of the six-week ban. Id. § 171.208(a)(2).
144.

In all of these circumstances, the only way for people to ensure they do not run

afoul of S.B. 8 is by refusing to perform or assist with any abortions (or “intend” to do either). Due
process does not permit such uncertainty, particularly where, as here, the challenged law threatens
to inhibit the exercise of constitutionally protected rights.
145.

S.B. 8 is, therefore, unconstitutionally vague and violates Plaintiffs’ due process

rights.

41

SuppApp.41

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 42 of 49

CLAIM 4
(First and Fourteenth Amendments, Freedom of Speech and the Right to Petition—
Section 3 of S.B. 8)
146.

The allegations in paragraphs 1 through 145 above are incorporated as if fully set

forth herein.
147.

Plaintiffs include physicians, health centers, nonprofit organizations, and

individuals committed to ensuring that all Texas residents have access to safe abortion care
regardless of their financial means or other sociodemographic characteristics. To serve this end,
they collectively engage in public education, organizing, and/or lobbying activities, and help
ensure minors who are unable to obtain written parental consent to terminate a pregnancy have
free legal representation in judicial-bypass proceedings. They also provide direct financial,
practical, and spiritual support to Texas residents seeking abortion.
148.

S.B. 8’s broad prohibition on activity that “aids or abets” a covered abortion, and

on an intent to engage in such activity even without corresponding action, burdens Plaintiffs’
speech and expressive conduct and ability to petition the courts, as described above. Because
S.B. 8 does so without adequate justification, it cannot possibly survive the strict scrutiny that
applies under the First Amendment.
149.

Even if S.B. 8’s prohibition were viewed as a regulation of conduct that only

incidentally burdens speech, the prohibition would still be invalid because it serves no legitimate,
much less important, governmental purpose and is otherwise not adequately justified to satisfy
intermediate scrutiny.

42

SuppApp.42

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 43 of 49

CLAIM 5
(Federal Preemption—Section 3 of S.B. 8)
150.

The allegations in paragraphs 1 through 149 above are incorporated as if fully set

forth herein.
151.

The U.S. Constitution is the supreme law of the land, and the Supreme Court is the

final arbiter of its meaning. State statutes inconsistent with rights conferred by the U.S.
Constitution or other federal law must give way. S.B. 8 defies this core tenet undergirding the rule
of law.
152.

S.B. 8 purports to require that for a person to argue that the six-week ban violates

patients’ constitutional right to abortion, the person must prove in each enforcement action that an
award of relief in that action will impose an undue burden. This conflicts with the Supreme Court’s
constitutional precedents, which hold that states may not prohibit pre-viability abortions, and that
balancing the burdens and state interests anew under the undue-burden test in a ban case is not
permissible. This limitation also disregards and purports to redefine the actual undue-burden
standard articulated by the U.S. Supreme Court, in conflict with the Supreme Court’s constitutional
precedents.
153.

S.B. 8 further directs state-court judges to ignore judgments and injunctions issued

by federal courts, id. § 171.208(e)(4), (5), contrary to decades of U.S. Supreme Court precedent.
Under that case law, states cannot simply give federal-court judgments in federal-question cases
“whatever effect they would give their own judgments,” but instead “must accord them the effect”
that federal law provides. Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S. 497, 507 (2001)
(emphasizing that the U.S. Supreme Court “has the last word on the claim-preclusive effect of all
federal judgments”); Cooper v. Aaron, 358 U.S. 1, 18 (1958) (confirming that state legislators and

43

SuppApp.43

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 44 of 49

judicial officers may not “at will[] annul the judgments of the courts of the United States, and
destroy the rights acquired under those judgments”).
154.

Because S.B. 8’s six-week ban and corresponding enforcement regime conflict with

U.S. Supreme Court interpretations of the federal constitution that confer clear rights on Plaintiffs
and their patients, they cannot validly be applied.
CLAIM 6
(Section 1988 Preemption—Section 4 of S.B. 8)
155.

The allegations in paragraphs 1 through 154 above are incorporated as if fully set

forth herein.
156.

Section 4 of S.B. 8 would permit defendants in Section 1983 litigation to recover

attorney’s fees and costs if a court ultimately dismisses or rejects any claim against them in cases
where someone challenges a state abortion regulation or restriction. The defendants could seek to
recoup these costs from parties and their attorneys in an entirely new proceeding before a different
judge within three years of the resolution of the substantive claim. No showing of frivolousness
on the part of Plaintiffs would be required.
157.

In contrast, 42 U.S.C. § 1988 sets out a comprehensive fee-shifting regime

applicable to Section 1983 and certain other federal civil-rights claims, regardless of whether those
claims are raised in state or federal court. Section 1988 provides civil-rights plaintiffs with a clear
right to recover their fees for covered claims where they are “prevailing parties.” It also provides
such plaintiffs with a clear right not to be liable for the fees and costs of a prevailing defendant,
unless a district court finds that the plaintiff’s action was frivolous, unreasonable, or without
foundation. Section 1988 further delineates civil-rights plaintiffs’ rights by instructing that a
request for attorney’s fees must be made in the “action or proceeding to enforce” a federal civil

44

SuppApp.44

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 45 of 49

rights statute, including Section 1983, and that the fees, where assessed, are allowed only “as part
of the costs.” 42 U.S.C. § 1988(b).
158.

Section 4 of S.B. 8 directly conflicts with Section 1988 and frustrates Congress’s

objective in adopting it. Because Section 4 of S.B. 8 is directly at odds with Section 1988, and
violates the rights conferred on Plaintiffs by that federal statute, it is preempted and may not be
applied to Plaintiffs in this or future Section 1983 litigation.
CLAIM 7
(First and Fourteenth Amendments, Freedom of Speech and the Right to Petition—
Section 4 of S.B. 8)
159.

The allegations in paragraphs 1 through 158 are incorporated as if fully set forth

160.

The legal services and litigation covered by Section 4 of S.B. 8 are a means for

herein.

Plaintiffs and their attorneys to achieve lawful objectives through the court system, and they serve
as a form of political expression.
161.

Under Section 4, only litigants motivated to block the enforcement of laws that

“regulate[] or restrict[] abortion” or laws that provide funding to entities who “perform or promote”
abortion are punished for their advocacy in litigation. S.B. 8 § 30.022. In contrast, S.B. 8 does not
impose a penalty on litigants whose goal is to uphold such laws, or to challenge laws that expand
access to abortion or provide funding to abortion providers or advocates.
162.

In both its purpose and effect, Section 4 is a viewpoint- and content-based

restriction on Plaintiffs’ abortion-related advocacy, including their petitioning activity. By
threatening Plaintiffs and their attorneys with massive liability for fees and costs, Section 4 will
necessarily chill the exercise of rights to free speech and to petition activity protected by the First
Amendment.

45

SuppApp.45

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 46 of 49

163.

Because SB 8 limits Plaintiffs’ right to speak freely and to petition the courts for

relief, without adequate justification, S.B. 8 violates the First Amendment and should be declared
invalid and unenforceable.
REQUEST FOR RELIEF
WHEREFORE, Plaintiffs ask this Court:
A.

To certify a class of Judicial Defendants as defined in paragraph 115 pursuant to

Federal Rule of Civil Procedure 23(b)(1)(A) or alternatively under Rule 23(b)(2);
B.

To certify a class of Clerk Defendants as defined in paragraph 123 pursuant to

Federal Rule of Civil Procedure 23(b)(1)(A) or alternatively under Rule 23(b)(2);
C.

To issue permanent, and if necessary, preliminary injunctive relief in advance of

S.B. 8’s September 1, 2021, effective date that:
(1)

restrains the Clerk Defendants, their officers, agents, servants, employees,

attorneys, and any persons in active concert or participation with them, from
participating in the enforcement of S.B. 8 in any way, including by accepting for
filing or taking any other action in the initiation of a lawsuit brought under S.B. 8;
(2)

restrains Defendant Mark Lee Dickson, his agents, servants, employees,

attorneys, and any persons in active concert or participation with him, from
enforcing S.B. 8 in any way;
(3)

restrains the Government Official Defendants, their officers, agents,

servants, employees, attorneys, and any persons in active concert or participation
with them, from enforcing S.B. 8 in any way, including by applying S.B. 8 as a
basis for enforcement of laws or regulations in their charge;
D.

To enter a judgment against all Defendants declaring that S.B. 8 violates the First

and Fourteenth Amendments to the U.S. Constitution and the Supremacy Clause and is preempted
46

SuppApp.46

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 47 of 49

by 42 U.S.C. §§ 1983 and 1988 and authoritative rulings of the U.S. Supreme Court regarding the
right to abortion and the res judicata effect and binding nature of federal court judgments and
injunctions;
E.

To enter a judgment against all Defendants declaring that because Plaintiffs’

advocacy, education, organizing, and lobbying activities, petitioning of the courts for relief, and
support for abortion patients is protected by the First Amendment, they cannot be the basis for
liability under S.B. 8;
F.

To award Plaintiffs their costs and expenses, including attorney’s fees, pursuant to

42 U.S.C. § 1988;
G.

To retain jurisdiction after judgment for the purposes of resolving any future fee

disputes between the parties and issuing further appropriate injunctive relief if the Court’s
declaratory judgment is violated; and
H.

To grant such other and further relief as the Court deems just and proper.

47

SuppApp.47

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 48 of 49

Dated: July 13, 2021
Respectfully submitted,
/s/ Christen Mason Hebert
Christen Mason Hebert
(Texas Bar No. 24099898)
Johns & Hebert PLLC
2028 East Ben White Blvd
Suite 240-1000
Austin, TX 78741
(512) 399-3150
chebert@johnshebert.com
Attorney for all Plaintiffs
Marc Hearron (Texas Bar No. 24050739)*
Center for Reproductive Rights
1634 Eye St., NW, Suite 600
Washington, DC 20006
(202) 524-5539
mhearron@reprorights.org
Molly Duane*
Kirby Tyrrell*
Melanie Fontes*
Center for Reproductive Rights
199 Water Street, 22nd Floor
New York, NY 10038
(917) 637-3631
mduane@reprorights.org
ktyrrell@reprorights.org
mfontes@reprorights.org
Jamie A. Levitt*
J. Alexander Lawrence*
Morrison & Foerster LLP
250 W. 55th Street
New York, NY 10019
(212) 468-8000
jlevitt@mofo.com
alawrence@mofo.com
Attorneys for Whole Woman’s Health, Whole
Woman’s Health Alliance, Marva Sadler,
Southwestern Women’s Surgery Center, Allison

Julie Murray*
Richard Muniz*
Planned Parenthood Federation of America
1110 Vermont Ave., NW Ste. 300
Washington, DC 20005
(202) 973-4997
julie.murray@ppfa.org
richard.muniz@ppfa.org
Attorneys for Planned Parenthood of
Greater Texas Surgical Health Services,
Planned Parenthood South Texas Surgical
Center, Planned Parenthood Center for
Choice, and Dr. Bhavik Kumar
Julia Kaye*
Brigitte Amiri*
Chelsea Tejada*
American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2633
jkaye@aclu.org
bamiri@aclu.org
ctejada@aclu.org
Lorie Chaiten*
American Civil Liberties Union Foundation
1640 North Sedgwick Street
Chicago, IL 60614
(212) 549-2633
rfp_lc@aclu.org
Adriana Pinon (Texas Bar No. 24089768)
David Donatti (Texas Bar No. 24097612)
Andre Segura (Texas Bar No. 24107112)
ACLU Foundation of Texas, Inc.
5225 Katy Freeway, Suite 350
Houston, TX 77007
Tel. (713) 942-8146
Fax: (713) 942-8966

48

SuppApp.48

Case 1:21-cv-00616 Document 1 Filed 07/13/21 Page 49 of 49

Gilbert, M.D., Brookside Women’s Medical
Center PA d/b/a Brookside Women’s Health
Center and Austin Women’s Health Center,
Alamo City Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services, Houston
Women’s Reproductive Services, Reverend
Daniel Kanter, and Reverend Erika Forbes.
*Pro hac vice applications forthcoming

apinon@aclutx.org
ddonatti@aclutx.org
asegura@aclutx.org
Attorneys for Houston Women’s Clinic
Stephanie Toti
LAWYERING PROJECT
41 Schermerhorn Street #1056
Brooklyn, NY 11201
(646) 490-1083
stoti@lawyeringproject.org
Rupali Sharma*
LAWYERING PROJECT
197 Pine Street, Apt. 23
Portland, ME 04102
(908) 930-6445
rsharma@lawyeringproject.org
Attorneys for The Afiya Center, Frontera
Fund, Fund Texas Choice, Jane’s Due
Process, Lilith Fund for Reproductive
Equity, North Texas Equal Access Fund

49

SuppApp.49

No. 21A24

3Jn tbt

~uprtmt

C!ourt of tbt Wnittb

~tatts

WHOLE WOMAN'S HEALTH, ET AL.,

Applicants,
v.
JUDGE AUSTIN REEVE JACKSON, ET AL.,

Respondents.
DECLARATION OF LESLEY FRENCH HENNEKE
KEN PAXTON

JUDD E. STONE II

Attorney General of Texas

Solicitor General
Counsel of Record

BRENT WEBSTER

First Assistant Attorney General
Office of the Texas Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov

LANORA C. PETTIT

Principal Deputy Solicitor
General
NATALIE D. THOMPSON
BETH KL USMANN

Assistant Solicitors General

Counsel for Respondents
Jackson, Carlton, Thomas,
Young, Benz, and Paxton

SuppApp.50

DECLARATIO N OF LESLEY FRENCH HENNEKE

Pursuant to 28 U.S.C. § 1746, I testify that:
1.

My name is Lesley French Henneke. I am over the age of 18

and fully competent in all respects to make this declaration. I make this
declaration based on my own personal and professional knowledge.
2.

I currently serve the Office of the Attorney General of Texas

as Chief of Staff. I have served in this role since November 2020.
Previously, I was General Counsel and Chief of the General Counsel
Division of the Office of the Attorney General of Texas.
3.

In my role as Chief of Staff for the Office of the Attorney

General of Texas, I advise the Attorney General and assist in overseeing
all of the Office of the Attorney General's operations. As part of my
responsibility, I am familiar with the legal obligations of the Office of the
Attorney General and with key legal positions that the Office of the
Attorney General has taken regarding the scope of its authority.
4.

In Senate Bill 8, the Texas Legislature provided for specific

methods of enforcement of the law and expressly precluded other
methods of enforcement. It is the position of the Office of the Attorney
General that Section 3 of Senate Bill8, which relates to the performance
of abortions after a fetal heartbeat has been detected, is enforced
exclusively through private causes of action and that it does not allow
public officials, including the Attorney General, to enforce it through
other statutory enforcement mechanisms.

SuppApp.51

5.

Section 3 of the law creates a private cause of action that is

expressly reserved for private persons. This section states that "[a]ny
person, other than an officer or employee of a state or local
governmental entity in this state, may bring a civil action."
6.

In turn, Section 6 of Senate Bill 8 provides that the private

cause of action established in Section 3 is the only method of enforcing
the abortion regulations found in Section 3. Section 3 reiterates this
point by explaining that it shall be "enforced exclusively through ...
private civil action."
7.

Though the Attorney General may have a role in enforcing

other aspects of the Health and Safety Code, Senate Bill 8 excludes the
Office of the Attorney General or other state agencies from enforcing
Section 3 of Senate Bill 8. Private persons may bring private causes of
action to enforce Section 3, but public officers are expressly precluded
from enforcing Section 3.
8.

Eliminating all doubt, Senate Bill 8 was explicit in stating

that "[n]otwithstanding ... any other law," the statutes enacted in
Section 3 "shall be enforced exclusively through the private civil actions
described" therein. S.B. 8 § 3.
9.

Therefore, public officers and agencies In the Texas,

including the Attorney General and the Office of the Attorney General,
lack authority to enforce the provisions of Section 3 of Senate Bill 8.

SuppApp.52

10.

Because Senate Bill 8 expressly and specifically precludes

enforcement of Section 3 by public officers, public officers may not
enforce it ,either directly or indirectly. For example, and despite
Plaintiffs' suggestion to the contrary, the Office of the Attorney General
could not use its pre-existing authority under the Texas Occupations
Code to seek civil penalties as a method of enforcing that which Senate
Bill 8 leaves to the enforcement of private lawsuits.
11.

The Office of the Attorney General understands that the

Texas Legislature decided that Section 3 of Senate Bill 8 should be
enforceable exclusively through private civil actions.
12.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of

perjury that the foregoing is true and correct.
Executed on this 31st day of August 2021.

Lesley French Henneke

SuppApp.53

